<html>
<title> - THE PROGRESS AND PITFALLS OF THE TERRORIST WATCH LIST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





         THE PROGRESS AND PITFALLS OF THE TERRORIST WATCH LIST

=======================================================================

                             FIELD HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2007

                               __________

                           Serial No. 110-84

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                     

  Available via the World Wide Web: http://www.gpoaccess.go/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-979 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    45
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    62
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    57
The Honorable Norman Dicks, a Representative in Congress From the 
  State Washington...............................................    44
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    49
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    59
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    47
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    55
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    55
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    51
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................     2
The Honorable Ginny Brown-Waite, a Representative in Congress 
  from the State of Florida:
  Prepared Statement.............................................     3

                             For the Record

National Business Travel Association:
  Prepared Statement.............................................    59

                               Witnesses

Mr. Leonard C. Boyle, Director, Terrorist Screening Center:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
The Honorable Glenn A. Fine, Inspector General Office of the 
  Inspector General, Department of Justice:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Ms. Kathleen Kraninger, Director, Screening Coordination Office, 
  Department of Homeland Security:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Ms. Eileen Larence, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14

 
                      THE PROGRESS AND PITFALLS OF
                        THE TERRORIST WATCH LIST

                              ----------                              


                       Thursday, November 8, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:11 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Dicks, DeFazio, Lowey, 
Norton, Etheridge, Cuellar, Carney, Clarke, Green, Perlmutter, 
Pascrell, King, Souder, Rogers, Reichert, McCaul and Bilirakis.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on the progress and pitfalls of the terrorist watch 
list. I want to welcome our witnesses.
    When most people hear about the terrorist watch list, they 
think of flying and of the no-fly list they hear about on TV. 
Many probably think about getting the dreaded ``S'' on their 
boarding pass, which means they get secondary screening.
    But the watch list is much broader than that. It is used by 
many consumers beyond the TSA, including the Customs and Border 
Protection, the Department of State and other Federal, State, 
local, territorial and tribal law enforcement agencies.
    The title of today's hearing really says it all: Progress 
and Pitfalls. In the almost 4 years since the Terrorist 
Screening Center was created, we have seen some real progress 
and taken multiple different watch lists and combining them 
into one functional list. And we stopped some really bad people 
from getting into our country. For these feats, Director Boyle 
and his employees are to be commended. But we have also seen 
the pitfalls of maintaining such a list. We have seen it grow 
exponentially, and we have heard growing concerns about the 
quality of some of the data. And we received reports from the 
GAO and from the Department of Justice's inspector general that 
raises serious issues that must be resolved if the watch list 
is to continue and expand.
    We have heard the stories about the false hits against the 
list, including my good friend Congressman John Lewis as well 
as young children of some of my own staff. We can do better, 
and we have to do better than to have a system that flags 
United States Congressmen and 2-year-olds as potential 
terrorists.
    Every day the watch list impacts real people who are 
traveling by air, land and sea. An accurate watch list keeps 
our Nation safe and keeps the bad guys out. An inaccurate and 
incomplete list creates more and more list misidentification, 
which in turn create fear and frustration.
    The American people will support the watch list if there is 
accountability, if they are confident that mistakes are being 
fixed and there is real redress process. If there is 
accountability, they will trust it being done right, not fear 
that they are being monitored by Big Brother. Conversely, if 
there is no accountability, the watch list will instill fear, 
and fear is not security. Quite the opposite. Fear is the lack 
of security. If the people lose faith, the watch list will go 
the way of color-coded terror alerts and become fodder for 
late-night comedians rather than reassurance that the United 
States Government is protecting its people. It will be viewed 
as a placebo, not protection.
    The 9/11 recommendations bill that became law this year 
took an important step toward creating some accountability. It 
created an Office of Appeals and Redress within the Department 
of Homeland Security. That office is supposed to establish and 
administer a timely and fair process for airline passengers who 
believe they have been impacted because they have been 
misidentified against the no-fly or selectee watch list. Yet to 
date, the Department has not related what progress has been 
made in creating this important office. Hopefully today we will 
get some answers, because an effective watch list is a critical 
part of our Nation's security.
    I look forward to hearing from our witnesses on how we can 
improve the watch list, facilitate effective redress, and avoid 
more pitfalls down the road.
    Without objection, I would also like to insert two items 
into the record, a letter I received last night from Secretary 
Chertoff concerning DHS's TRIP program, and a statement from 
the Asian Law Caucus.\1\
---------------------------------------------------------------------------
    \1\ See Committee file.
---------------------------------------------------------------------------
    Chairman Thompson. The Chairman now recognizes Mr. 
Reichert, who will deliver the Republican opening statement.
    Mr. Reichert. Thank you, Mr. Chairman. I was handed the 
Ranking Member's opening statement just a few minutes ago, so 
it is my pleasure to share his thoughts with the witnesses and 
the committee.
    In its final report, the 9/11 Commission indicated that 
consolidation of terrorist watch lists should be a priority for 
the Federal Government. Prior to the release of the 9/11 
Commission's report, the President recognized the urgent need 
for action and issued Homeland Security Presidential Directive 
6, requiring the creation of a consolidated terrorist watch 
list. The Terrorist Screening Center was born of this 
initiative.
    Every month the Federal Government and local law 
enforcement officials screen some 270 million individuals 
against the new consolidated watch list. Since the TSC's 
establishment in December of 2003, frontline screeners using 
this watch list encountered known or reasonably suspected 
terrorists 53,000 times.
    The watch list is imperfect, but the employees of the 
screening center are working aggressively to continuously 
improve the data. The bottom line here is the watch list stops 
would-be terrorists from entering the United States. According 
to Customs and Border Protection on March 27, 2005, a CBP 
officer identified an individual who is a possible match to two 
terrorist-related records. The ID resulted in a local JTTF 
arresting the passenger, who was later charged with conspiring 
to provide material support to terrorists and conspiracy to 
kill, kidnap or maim persons. Similarly, CBP denied entry of a 
Palestine Liberation Organization weapons smuggler. The suspect 
was later charged with conspiracy to traffic in explosive 
devices and firearms. We hope to explore additional examples 
during today's hearing.
    Some are concerned that the terrorist watch list is too 
expansive, that there might be too many persons on the list. I 
hope we can provide some clarity today as to how exactly that 
happens.
    And finally, some are concerned that the redress process is 
moving too slow to remove individuals from the watch list. I 
would be more concerned if we were too quick to remove known or 
suspected terrorists from the watch list. A careful, methodical 
approach is necessary to ensure we don't prematurely remove 
suspects from the terrorist watch list.
    Ultimately, no one at the table, no one at this dais can 
say that the terrorist watch list doesn't work. No one can say 
it hasn't prevented known or suspected terrorists from entering 
the United States, and I believe it has saved lives.
    I look forward to hearing from our witnesses today on the 
successes of the Terrorist Screening Center and look forward to 
its continued successes as it matures and improves.
    I yield back.
    Chairman Thompson. Thank you very much.
    Chairman Thompson. Other members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record.
    [The information follows:]

   Prepared Opening Statement of the Honorable Ginny Brown-Waite, a 
          Representative in Congress from the State of Florida

    I want to thank the Chairman for holding this hearing today.
    The Terrorist Watch List is an invaluable weapon in our fight 
against terrorism. It is critical that law enforcement officials have 
the capability to screen those who enter and exit this country, and 
those who board our airplanes.
    I applaud the significant progress the Terrorist Screening Center 
has made to date, and acknowledge the key role the Terrorist Watch List 
has played in preventing another terrorist attack on American soil 
after 9/11.
    While I understand that the application of the Terrorist Watch List 
has led to frustration for some due to misidentifications and delays, 
we must keep in mind the enormous scope of the task the Terrorist 
Screening Center has been given. Properly screening the more than 270 
million people entering or exiting the United States each month will 
continue to require the patience and understanding of all Americans.
    Americans should be reassured to hear that of those 270 million 
people who enter and exit America each month, agencies encountered 
individuals who were positively matched to watch list records on 
average 1,268 times per month. On several occasions, the positive match 
to the list resulted in terror-related arrests, or prevented a 
suspected terrorist from entering the United States.
    Of course, there are ways to improve the efficiency and accuracy of 
the watch list, and I support a responsible approach to addressing 
these improvements. I look forward to today's testimony, and to 
continuing to work with all branches of the federal government to 
ensure the safety of all Americans.
    Thank you.

    Chairman Thompson. I would like to welcome our witnesses 
today. Our first witness is Mr. Glenn Fine, inspector general 
of the Department of Justice. Before joining the OIG, Mr. Fine 
was an assistant U.S. attorney in Washington, D.C., United 
States Attorney's Office.
    Our second witness is Ms. Eileen Larence, a Director at the 
Government Accountability Office. She has extensive experience 
assessing various homeland security issues.
    Our third witness today is Leonard Boyle, the Director of 
the Terrorist Screening Center. Director Boyle has an extensive 
career in public service, having spent nearly two decades as a 
police officer, Federal prosecutor, and as the commissioner of 
Connecticut's Department of Public Safety.
    Welcome, Commissioner.
    Our fourth witness is Kathleen Kraninger, who was appointed 
by Secretary Chertoff in July of 2006 to serve as a first 
Director of the Department of Homeland Security's Screening 
Coordination Office.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each of the witnesses to summarize their 
statement for 5 minutes, beginning with Inspector General Fine.

 STATEMENT OF GLENN A. FINE, INSPECTOR GENERAL, OFFICE OF THE 
            INSPECTOR GENERAL, DEPARTMENT OF JUSTICE

    Mr. Fine. Mr. Chairman, members of the committee, thank you 
for inviting me to testify on the terrorist watch list 
screening system.
    For the past several years, the Department of Justice 
Office of the Inspector General has examined the work of the 
Terrorist Screening Center, a multiagency effort administered 
by the FBI to integrate U.S. Government terrorist watch lists 
into a consolidated database. Prior to the establishment of the 
TSC, the Federal Government's terrorist screening system was 
fragmented, relying on at least a dozen separate watch lists 
maintained by a variety of Federal agencies.
    In June 2005, the OIG issued our first audit of the TSC's 
operations. This audit found that the TSC had made significant 
strides in developing a consolidated terrorist watch list 
database, but we also found weaknesses in various areas of TSC 
operations, including information in the consolidated database 
that was not complete or accurate. Last month we completed a 
follow-up review, examining the TSC's progress and improving 
its operations. This audit found that the TSC has continued to 
make significant progress in important areas. However, we also 
concluded that the watch list continues to have significant 
weaknesses, and that the information in the watch list database 
was not complete or fully accurate.
    These weaknesses can have enormous consequences. 
Inaccuracies in watch list data increase the possibility that 
reliable information will not be available to frontline 
screening agents, which could prevent them from successfully 
identifying a known or suspected terrorist. Inaccurate watch 
list information also increases the chances of innocent persons 
being stopped or detained because of misidentification.
    For these reasons we believe it is critical that the TSC 
and the agencies providing watch list data to the TSC to 
further improve the accuracy of the information. In my 
testimony today I would like to make five brief observations 
about needed improvements.
    First, the TSC still maintains two versions of the watch 
list database. While the TSC is developing an upgraded, 
consolidated database that will eliminate the need to maintain 
parallel systems, the two databases were not identical in 
content when we tested them, which they should be.
    Second, we found that not all watch list records were being 
sent to downstream screening databases. We discussed this issue 
with TSC officials, who agreed with our findings and began 
correcting these omissions.
    Third, we concluded that the TSC needs to further improve 
its quality assurance efforts for ensuring the accuracy of the 
watch list records. We recognize that it is impossible to 
completely eliminate the potential for errors in such a large 
database; however, we identified continuing inaccuracies in 
records that had already undergone the TSC's routine quality 
assurances processes.
    Fourth, we found that the TSC's efforts to resolve 
complaints from individuals about their possible inclusion on 
the watch list have improved since our previous audit, and the 
TSC has created a dedicated unit to handle redress complaints; 
however, the TSC's redress activities were not always timely. 
Moreover, the high percentage of complaints requiring 
modification or removal from the watch list is a further 
indicator that the watch list data needs continuous monitoring 
and attention.
    Fifth, we found that the TSC does not have a policy or 
procedures to proactively use information from encounters with 
individuals to reduce watch list misidentification. Considering 
that nearly half of all encounters referred to the TSC call 
center are negative for watch list match, we recommend that the 
TSC consider misidentification a priority and develop strategic 
goals and policies for mitigating misidentification, 
particularly for individuals who are repeatedly misidentified.
    In total, our report made 18 recommendations to further 
improve the TSC's watchlisting process. These recommendations 
include making improvements to the quality of the watch list 
data, revising the FBI's watch list nominations process, and 
developing goals, measures and timeliness standards related to 
redress procedures. In response, the TSC agreed with the 
recommendations and stated that it would take corrective 
action.
    In sum, the TSC does deserve credit for creating and 
implementing a consolidated watch list and for making 
significant progress in improving the watch list and screening 
processes. However, our reviews have found continuing 
weaknesses in some of these processes. We believe it is 
critical that the TSC further improve the quality of its data 
and its redress procedures. While the TSC has a difficult task 
and has made significant progress, we believe it needs to make 
additional improvements.
    That concludes my statement, and I would be pleased to 
answer any questions.
    Chairman Thompson. Thank you for your testimony.
    [The statement of Mr. Fine follows:]

                  Prepared Statement of Glenn A. Fine

I. Introduction
    Mr. Chairman, Ranking Member King, and Members of the Committee on 
Homeland Security:
    I appreciate the opportunity to testify before the Committee on the 
terrorist screening system and watchlist process. For the past several 
years, the Department of Justice Office of the Inspector General (OIG) 
has examined the work of the Terrorist Screening Center (TSC), which is 
a multi-agency effort administered by the Federal Bureau of 
Investigation (FBI). Created in 2003, the TSC integrates U.S. 
government terrorist watchlists into a consolidated database and 
provides 24-hour, 7-day a week responses to federal, state, and local 
governments to assist in screening for individuals with possible ties 
to terrorism. Prior to the establishment of the TSC, the federal 
government's terrorist screening system was fragmented, relying on at 
least a dozen separate watchlists maintained by different federal 
agencies.
    In June 2005, the OIG issued its first audit of the TSC's 
operations. Our 2005 audit found that the TSC had made significant 
strides in becoming the government's single point-of-contact for law 
enforcement authorities requesting assistance in identifying 
individuals with possible ties to terrorism. However, we also found 
weaknesses in various areas of TSC operations, including that the TSC 
had not ensured that the information in the consolidated terrorist 
watchlist database was complete and accurate.
    In September of this year, we completed a follow-up review 
examining the TSC's progress in improving its operations and addressing 
certain recommendations in our 2005 audit. Our follow-up review found 
that the TSC had continued to make progress in several important areas. 
For example, the TSC had enhanced its efforts to ensure the quality of 
watchlist data, had increased staff assigned to data quality 
management, and had developed a process and a separate office to 
address complaints filed by persons complaining that they are included 
on the terrorist watchlist by mistake.
    Yet, we also determined that the TSC's management of the watchlist 
continues to have significant weaknesses, and that the data in the 
watchlist database was not complete or fully accurate.
    Thus, while the TSC is a critical participant in the government's 
counterterrorism effort and TSC employees deserve credit for creating a 
consolidated watchlist, weaknesses remain in the TSC's operations and 
watchlisting process. These weaknesses can have enormous consequences. 
Inaccurate, incomplete, and obsolete watchlist information can increase 
the risk of not identifying known or suspected terrorists, and it can 
also increase the risk that innocent persons will be stopped or 
detained. For these reasons, we believe it critical for the TSC, and 
the agencies providing information for inclusion in the consolidated 
watchlist database, to further improve the accuracy of the data and 
their efforts to remove inaccurate information.
    In this statement, I provide further details on these conclusions. 
First, I briefly provide background on the operation of the TSC. I then 
summarize the findings of the two OIG reports on the TSC's operations. 
Finally, I note for the Committee ongoing reviews by our office and 
other Inspectors General in the Intelligence Community that are further 
examining the watchlist nomination process.

II. Background
        A. Creation of the TSC
    Prior to the establishment of the TSC, the federal government 
relied on many separate watchlists maintained by different federal 
agencies for screening individuals who, for example, apply for a visa, 
attempt to enter the United States through a port-of-entry, attempt to 
travel internationally on a commercial airline, or are stopped by a 
local law enforcement officer for a traffic violation.
    Homeland Security Presidential Directive-6 (HSPD-6), signed on 
September 16, 2003, required the creation of the TSC to integrate the 
existing U.S. government terrorist watchlists and provide 24-hour, 7-
day a week responses for agencies that use the watchlisting process to 
screen individuals. HSPD-6 mandated that the TSC achieve initial 
operating capability by December 1, 2003.
    Following the issuance of HSPD-6, the Attorney General, the 
Director of Central Intelligence, and the Secretaries of the Department 
of Homeland Security (DHS) and the Department of State entered into a 
Memorandum of Understanding (MOU) describing the new TSC organization 
and the level of necessary cooperation, including the sharing of staff 
and information from the four participating agencies. The MOU 
stipulated that the Director of the TSC would report to the Attorney 
General through the FBI. As a result, the FBI administers the TSC, 
although the Principal Deputy Director of the TSC must be an employee 
of the DHS.
    Since fiscal year (FY) 2004, the participating agencies have shared 
responsibility for funding and staffing the TSC. For fiscal year 2007, 
the TSC had a budget of approximately $83 million and a staffing level 
of 408 positions.
        B. The TSC's Role in the Watchlist Process
    When a law enforcement or intelligence agency identifies an 
individual as a potential terrorist threat to the United States and 
wants that individual watchlisted, the source agency nominates that 
person for inclusion in the consolidated watchlist maintained by the 
TSC. As additional information is obtained that either enhances the 
identifying information or indicates that the individual has no nexus 
to terrorism, the record should be updated or deleted.
    The TSC shares the information contained in its Terrorist Screening 
Database by exporting or sending data ``downstream'' to other screening 
systems, such as the State Department's Consular Lookout and Support 
System (CLASS), DHS's Interagency Border Inspection System (IBIS), the 
Transportation Security Administration's (TSA) No Fly list, the FBI's 
Violent Gang and Terrorist Organization File (VGTOF) within its 
National Crime Information Center (NCIC) system, and others. Watchlist 
information is then available for use by U.S. law enforcement and 
intelligence officials across the country and around the world.
    Law enforcement or intelligence personnel routinely encounter 
individuals as part of their regular duties. For example: (1) DHS 
agents of the U.S. Customs and Border Protection agency examine 
individuals at various U.S. ports-of-entry and search IBIS to determine 
if a person can be granted access to the United States, (2) State 
Department officials process visa applications from non-U.S. citizens 
wishing to visit the United States and search CLASS to determine if the 
individual should be granted a U.S. visa, and (3) state and local law 
enforcement officers query the FBI's NCIC system to review information 
about individuals encountered through the criminal justice system. 
These databases and lists contain terrorist watchlist records to assist 
screening agents in identifying persons that the U.S. government has 
determined are known or suspected terrorists.
    When a name appears to be a match against the terrorist watchlist, 
requestors receive a return message through their database informing 
them of the preliminary match and directing them to call the TSC. When 
a call is received, TSC staff in the 24-hour call center assist in 
confirming the subject's identity.
    These matches may be actual watchlist subjects, individuals 
misidentified to a terrorist identity, or someone mistakenly included 
on the watchlist. In responding to such a call, TSC Call Center staff 
search the consolidated database and other databases to determine if a 
terrorist watchlist identity match exists.
    Records within the consolidated watchlist database also contain 
information about the law enforcement action to be taken when 
encountering the individual. This information is conveyed through 
``handling codes'' or instructions--one handling code for the FBI and 
one for the DHS. The FBI's handling codes are based on whether there is 
an active arrest warrant, a basis to detain the individual, or an 
interest in obtaining additional intelligence information regarding the 
individual. DHS handling instructions provide screeners with 
information on how to proceed with secondary screening of the 
individual.
    Between the TSC's inception in December 2003 and May 2007, the TSC 
has documented more than 99,000 encounters for which its call center 
was contacted. TSC data shows that 53.4 percent of these calls were 
determined to be a positive match to a terrorist watchlist identity in 
the consolidated database. In those cases, the TSC contacted the FBI, 
which is responsible for initiating any necessary law enforcement 
action. In 43.4 percent of the encounters, it was determined that the 
individual did not match the watchlisted identity. In the remaining 3.2 
percent of the encounters, the TSC Call Center staff could not 
definitively determine if the match was positive or negative and 
therefore forwarded these calls to the FBI.
    Since creation of the TSC in December 2003, the number of records 
in the consolidated watchlist database of known or suspected terrorists 
has significantly increased. According to TSC officials, in April 2004 
the consolidated database contained approximately 150,000 records. It 
is important to note that because multiple records may pertain to one 
individual, the number of individuals in the database is fewer than the 
total number of records.
    TSC data indicate that by July 2004 the number of records in the 
consolidated database had increased to about 225,000, representing 
approximately 170,000 individuals. In February 2006, the TSC reported 
that the database contained approximately 400,000 records. Most 
recently, information we obtained from the TSC indicates that the 
consolidated database contained 724,442 records as of April 30, 2007. 
According to the TSC, these records relate to approximately 300,000 
individuals.

    III. The OIG's June 2005 Audit of the TSC
    In June 2005, the OIG issued an audit of the TSC's operations. As 
mentioned previously, the OIG review found that the TSC had made 
significant strides in becoming the government's single point-of-
contact for assistance in identifying individuals with possible ties to 
terrorism. The TSC began operating as the nation's centralized 
terrorist screening center by the mandated December 1, 2003, date. 
Several months later, the TSC began using a terrorist screening 
database that contained consolidated information from a variety of 
existing watchlist systems.
    Yet, while the TSC had deployed a consolidated watchlist database, 
the OIG report found that the TSC had not ensured that the information 
in that database was complete and accurate. For example, the OIG found 
that the consolidated database did not contain names that should have 
been included on the watchlist. In addition, the OIG found inaccurate 
or inconsistent information related to persons included in the 
database.
    Due to its rapid start-up and the need for personnel with 
adjudicated security clearances, the TSC had been heavily dependent 
upon staff and supervisors detailed from participating agencies who 
generally worked at the TSC for only 60 to 90 days. Moreover, due to 
the temporary assignments of call center supervisors, the TSC had 
difficulty developing and implementing standard oversight procedures 
for call center personnel, and at times provided incorrect instructions 
to call center staff. This lack of sufficient training, oversight, and 
general management of the call screeners left the call center 
vulnerable to errors, poor data entry, and untimely responses to 
callers. We also found problems with the TSC's management of its 
information technology, a crucial facet of the terrorist screening 
process.
    The OIG report also concluded that the TSC needed to better address 
instances when individuals were mistakenly identified as a ``hit'' 
against the consolidated database (also referred to as 
misidentifications). Finally, the audit found that the TSC would 
benefit from formalizing its strategic planning efforts, enhancing its 
outreach efforts to inform the law enforcement and intelligence 
communities of its role and functions, and expanding its ability to 
assess the effectiveness and performance of the organization. The OIG 
report provided 40 recommendations to the TSC to address areas such as 
database improvements, data accuracy and completeness, call center 
management, and staffing. The TSC generally agreed with the 
recommendations and said it had, or would, take corrective actions.

IV. The OIG's September 2007 Follow-up Audit on TSC Operations
    In September 2007, the OIG issued a follow-up audit assessing the 
progress of the TSC in improving its operations. Our audit examined the 
TSC's efforts to ensure that accurate and complete records were 
disseminated to and from the watchlist database in a timely fashion and 
the TSC's efforts to ensure the quality of the information in the 
watchlist database. The review also examined the TSC's process to 
respond to complaints raised by individuals who believe they have been 
incorrectly identified as watchlist subjects.
    In conducting this audit, we interviewed more than 45 officials and 
reviewed numerous TSC documents. To evaluate the accuracy and 
completeness of the consolidated watchlist, we analyzed the 
consolidated database as a whole, and reviewed the number of records in 
the database and any duplication that existed within those records. We 
also tested individual records for accuracy and completeness, as well 
as the timeliness of any related quality assurance activities.
    Overall, our follow-up audit found that the TSC had enhanced its 
efforts to ensure the quality of watchlist data, had increased staff 
assigned to data quality management, and had developed a process and a 
separate office to address complaints filed by persons seeking relief 
from adverse effects related to terrorist watchlist screening. In these 
areas, we credited the TSC for significant progress in improving its 
operations.
    However, we also determined that the TSC's management of the 
watchlist has significant continuing weaknesses. For example, our 
review revealed instances where known or suspected terrorists were not 
appropriately watchlisted on screening databases that frontline 
screening agents (such as border patrol officers, visa application 
reviewers, or local police officers) use to identify terrorists and 
obtain instruction on how to appropriately handle these subjects.
    Even a single omission of a terrorist identity or an inaccuracy in 
the identifying information contained in a watchlist record can have 
enormous consequences. Inaccuracies in watchlist data increase the 
possibility that reliable information will not be available to 
frontline screening agents, which could prevent them from successfully 
identifying a known or suspected terrorist during an encounter or place 
their safety at greater risk by providing inappropriate handling 
instructions for a suspected terrorist. Furthermore, inaccurate, 
incomplete, and obsolete watchlist information increases the chances of 
innocent persons being stopped or detained during an encounter because 
of being misidentified as a watchlist identity.
    Our review also found that, due to technological differences and 
capabilities of the various systems used in the watchlist process, the 
TSC still maintains two interconnected versions of the watchlist 
database. The TSC is developing an upgraded consolidated database that 
will eliminate the need to maintain parallel systems. However, in the 
meantime these two databases should be identical in content and 
therefore should contain the same number of records. Yet, we discovered 
during our review that these two systems had differing record counts.
    We also found that the number of duplicate records in the TSC 
database has significantly increased. Multiple records containing the 
same unique combination of basic identifying information can needlessly 
increase the number of records that a call screener must review when 
researching a specific individual. In addition, when multiple records 
for a single identity exist, it is essential that the identifying 
information and handling instructions for contact with the individual 
be consistent in each record. Otherwise, the screener may mistakenly 
rely on one record while a second more complete or accurate record may 
be ignored. Furthermore, inconsistent handling instructions contained 
in duplicate records may pose a safety risk for law enforcement 
officers or screeners.
    In addition, we found that not all watchlist records were being 
sent to downstream screening databases. Our testing of a sample of 105 
watchlist records revealed 7 watchlist records that were not exported 
to all appropriate screening databases. As a result of the TSC's 
failure to export all terrorist watchlist records to screening 
databases, watchlisted individuals could be inappropriately handled 
during an encounter. For example, a known or suspected terrorist could 
be erroneously issued a U.S. visa or unknowingly allowed to enter the 
United States through a port-of-entry. We discussed these records with 
TSC officials who agreed with our findings and began correcting these 
omissions.
    Our review also found that the TSC did not have a process for 
regularly reviewing the contents of the consolidated database to ensure 
that only appropriate records were included on the watchlist. TSC 
officials told us that they would perform a monthly review of the 
database to identify records that are being stored in the database that 
are not being exported to downstream systems. We also believe it is 
essential that the TSC regularly review the database to ensure that all 
outdated information is removed, as well as to affirm that all 
appropriate records are watchlisted.
    Our review determined that because of internal FBI watchlisting 
processes, the FBI bypasses the normal terrorist watchlist nomination 
process for international terrorist nominations and instead enters 
international nominations directly into a downstream screening system. 
This process is not only cumbersome for the TSC, but it also results in 
the TSC being unable to ensure that consistent, accurate, and complete 
terrorist information from the FBI is disseminated to frontline 
screening agents in a timely manner. As a result, in our report we 
recommended that the FBI and TSC work together to design a more 
consistent and reliable process by which FBI-originated international 
terrorist information is provided for inclusion in the consolidated 
watchlist.
    We concluded that the TSC needs to further improve its efforts for 
ensuring the quality and accuracy of the watchlist records. We found 
that since our last report the TSC had increased its quality assurance 
efforts and implemented a data quality improvement plan. In general, we 
believe the actions the TSC has taken to improve quality assurance are 
positive steps. We also recognize that it is impossible to completely 
eliminate the potential for errors in such a large database. However, 
continuing inaccuracies that we identified in watchlist records that 
had undergone the TSC's quality assurance processes underscore the need 
for additional actions to ensure the accuracy of the database.
    For example, the TSC completed a special quality assurance review 
of the TSA's No Fly list, which reduced the number of records on the 
list. Our review of a sample of records examined during of this special 
review process identified virtually no errors. In contrast, our 
examination of the TSC's routine quality assurance reviews revealed 
continued problems. Specifically, we examined 105 records subjected to 
the TSC's routine quality assurance review and found that 38 percent of 
the records we tested continued to contain errors or inconsistencies 
that were not identified through the TSC's routine quality assurance 
efforts. Thus, although the TSC had clearly increased its quality 
assurance efforts since our last review, it continues to lack important 
safeguards for ensuring data integrity, including a comprehensive 
protocol outlining the TSC's quality assurance procedures and a method 
for regularly reviewing the work of its staff to ensure consistency.
    Our audit also expressed concerns that the TSC's ongoing quality 
assurance review of the consolidated watchlist will take longer than 
projected by the TSC. At the time of our audit field work in April 
2007, the TSC was continuing its efforts to conduct a record-by-record 
review of the consolidated watchlist and anticipated that all watchlist 
records would be reviewed by the end of 2007. However, the watchlist 
database continues to increase by more than 20,000 records per month 
and as of April 2007 contained over 700,000 records. Given this growth 
and the time it takes for the TSC's quality assurance process, we 
believe the TSC may be underestimating the time required to 
sufficiently review all watchlist records for accuracy.
    With regard to addressing complaints from individuals about their 
possible inclusion on the watchlist, we found that the TSC's efforts to 
resolve complaints have improved since our previous audit. In 2005, the 
TSC created a dedicated unit to handle such matters. The TSC also 
helped to spearhead the creation of a multi-agency Memorandum of 
Understanding (MOU) focusing on watchlist redress (Redress MOU) and 
developed comprehensive redress procedures. Currently, frontline 
screening agencies such as the DHS and the State Department receive 
complaints from persons seeking relief related to the terrorist 
watchlist screening process. Matters believed to be related to a 
terrorist watchlist identity or to an encounter involving the watchlist 
are forwarded to the TSC. The TSC Redress Office conducts an 
examination of the watchlist records, reviews other screening and 
intelligence databases, and coordinates with partner agencies for 
additional information and clarification. The TSC determines if any 
records need to be modified or removed from the watchlist, ensures 
these changes are made, and notifies the referring frontline screening 
agency of the resolution. The frontline screening agency is then 
responsible for responding to the complainant.
    To test the TSC's redress procedures, we selected 20 redress 
complaints received by the TSC between January 2006 and February 2007 
and reviewed the corresponding files to determine if the TSC followed 
its redress procedures.
    We found that in each of the sampled cases the TSC complied with 
its redress procedures, including reviewing the applicable screening 
and intelligence databases, coordinating with partner agencies, and 
reaching appropriate resolutions.
    However, we also noted that the TSC's redress activities identified 
a high rate of error in watchlist records. The high percentage of 
records in the redress process requiring modification or removal points 
to deficiencies in the terrorist watchlisting process. We believe that 
the results of the TSC's redress reviews are a further indicator that 
watchlist data needs continuous monitoring and attention.
    In addition, we believe the TSC needs to address the timeliness of 
redress complaint resolutions. We reviewed TSC files and statistics for 
closed redress matters to examine the efficiency of redress reviews. 
This data revealed that it took the TSC, on average, 67 days to close 
its review of a redress inquiry. Our review of redress files indicated 
that delays were primarily caused by three factors: (1) the TSC took a 
long time to finalize its determination before coordinating with other 
agencies for additional information or comment, (2) nominating agencies 
did not provide timely feedback to the TSC or did not process watchlist 
paperwork in a timely manner, and (3) certain screening agencies were 
slow to update their databases with accurate and current information.
    TSC officials acknowledged that it has not developed response 
timeframes for redress matters with its partner agencies. While the 
Redress MOU states that one of the goals of the redress process is to 
provide a timely review, the MOU does not define what constitutes a 
reasonable timeframe. Because the TSC is central to resolving any 
complaint regarding the content of the consolidated terrorist 
watchlist, we recommended that the TSC organize the U.S. government's 
effort to develop timeliness measures for the entire watchlist redress 
process.
    In addition, we found the TSC does not have any policy or 
procedures to proactively use information from encounters to reduce the 
incidence and impact of watchlist misidentifications. For example, the 
TSC could program its tracking system to automatically generate a 
quality assurance lead for the TSC to perform a review of watchlist 
records that have been the subject of a certain number of encounters 
with individuals that were not a positive match to the watchlist 
record. Moreover, the TSC's strategic plan does not include goals or 
actions associated with reducing the incidence of misidentifications or 
the impact on misidentified persons other than that covered by a formal 
redress process. Considering that nearly half of all encounters 
referred to the TSC Call Center are negative for a watchlist match, we 
recommended that the TSC consider misidentifications a priority and 
develop strategic goals and policy for mitigating the adverse impact of 
the terrorist screening process on non-watchlist subjects, particularly 
for individuals who are repeatedly misidentified as watchlist 
identities.
    In total, our report made 18 recommendations to further improve the 
TSC's watchlisting process and the quality of the watchlist data. These 
recommendations include making further improvements to increase the 
quality of watchlist data; revising the FBI's watchlist nominations 
process; and developing goals, measures, and timeliness standards 
related to the redress process. In response, the TSC agreed with the 
recommendations and stated that it would take corrective action.

V. Ongoing Reviews of Watchlist Nomination Process
    The OIG is currently conducting a separate audit examining the 
watchlist nominations processes in the Department of Justice. This 
audit is examining the specific policies and procedures of Department 
components for nominating individuals to the consolidated watchlist. 
The audit also is reviewing the training provided to the individuals 
who are involved in the nominating process. The Department components 
we are reviewing include the FBI, the Drug Enforcement Administration, 
the Bureau of Alcohol, Tobacco, Firearms and Explosives, and the United 
States Marshals Service.
    We are conducting this review in conjunction with other 
Intelligence Community OIGs, who are examining the watchlist nomination 
process in their agencies. The OIG reviews, which are being coordinated 
by the OIG for the Office of the Director of National Intelligence, 
include OIGs in the Departments of State, Treasury, Energy, Homeland 
Security, and others.

VI. Conclusion
    In conclusion, the TSC deserves credit for creating and 
implementing a consolidated watchlist and for making significant 
progress in improving the watchlist and screening processes. However, 
our reviews have found continuing weaknesses in some of those processes 
and in the quality of the data in the consolidated database. We believe 
it is critical that the TSC further improve the quality of its 
watchlist data and its redress procedures. Inaccurate, incomplete, and 
obsolete watchlist information can increase the risk of not identifying 
known or suspected terrorists, and it can also increase the risk that 
innocent persons will be repeatedly stopped or detained. While the TSC 
has a difficult task and has made significant progress, we believe it 
needs to make additional improvements.
    That concludes my statement and I would be pleased to answer any 
questions.

    Chairman Thompson. I now recognize Ms. Larence to summarize 
her statement for 5 minutes.

 STATEMENT OF EILEEN LARENCE, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larence. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here this morning to summarize 
our work on the use of the terrorist watch list to screen 
individuals for threats to homeland security.
    Mr. Chairman, as you and Mr. Fine noted, learning from the 
lessons of 9/11, the government now has one consolidated master 
repository of records on individuals with known or potential 
ties to terrorism. Agencies such as State, Customs and 
Transportation Security use the watch list to screen people 
applying for a visa, crossing our borders, making airline 
reservations or even being stopped for traffic violations.
    Our review of this screening shows that the terrorist watch 
list is an important counterterrorism tool, but one that can 
pose adverse effects on the public that need to be addressed, 
and one that can be strengthened by reducing vulnerabilities 
and providing for greater effectiveness and accountability.
    To elaborate, in a report last September 2006, we assessed 
how often individuals are mistakenly identified as being on the 
watch list. While the total number of times this has happened 
is unknown, the Terrorist Screening Center is aware of this 
happening about 50,000 times to date, and the individuals were 
often stopped, questioned and sometimes searched, usually 
because their name is a close match to someone actually on the 
list or because computers cannot match names exactly.
    We also found that agencies were taking action to help 
these individuals get through screening more quickly and 
implementing redress processes to address these complaints. But 
to provide for more consistency in these processes and the way 
misidentified individuals are treated, agencies should share 
information they obtain that helps to resolve misidentification 
more quickly and prevent them in the future.
    In a recent report issued last month, we addressed four 
other fundamental questions about the watch list. First, how do 
people get on and off the list? Intelligence agencies, the FBI 
and others nominate individuals for the list based on a 
relatively low bar so that they do not miss anyone that could 
pose a threat. Generally, agencies look to see whether the 
information they have on a person provides a reasonable 
suspicion that the person has known or potential links to 
terrorism. Sometimes the information is pretty limited, so 
agencies subjectively decide whether to list someone using 
criteria and review processes as safeguards. If an FBI 
investigation or new information shows an individual does not 
have links to terrorism, the person is to come off the list.
    The Terrorist Screening Center says it has removed at least 
100,000 records from the list so far, but it is still growing, 
about 20,000 records a month, and now has about 880,000 
records.
    The second question our report identified is how often do 
agencies encounter someone on a list, and what happens to them? 
As of today airlines or agencies encountered people on the 
watch list about 62,000 times, most often within the United 
States, and frequently by State and local law enforcement. 
Because of limited information, agencies often, but not always, 
have the basis to automatically arrest, deport or deny a person 
on the list a visa, entry to the country or air travel. In 
fact, most often the person is questioned and released. 
Agencies use this questioning to determine if the person is a 
threat, monitor the person's movements, and update intelligence 
and investigative files.
    The third question our report addresses is whether there 
are potential vulnerabilities in agencies' use of the watch 
list. Because agencies have different missions and computer 
systems, they do not check travelers against all names on the 
list. CBP checks against the most names, and airlines against 
the fewest. Agencies also know that individuals on the list 
have passed undetected through their screening processes. For 
example, people on the no-fly list who were supposed to be 
denied board having boarded aircraft, and people on the watch 
list have crossed the border without being detected. We have 
recommended that agencies assess and correct any such screening 
vulnerabilities, and they agreed.
    Finally, our report asked whether the government is using 
the list most effectively. Agencies have made significant 
progress since 9/11 in using this tool, but have not identified 
all possible screening opportunities. DHS also has not yet 
implemented guidelines to help private sector owners or 
operators of critical infrastructure, such as chemical 
facilities, use the list to screen employees for threats, and 
we have recommended that the DHS do so.
    Further, while each agency owns a parochial piece of the 
watch list process, no one entity is accountable governmentwide 
for how well the overall process is working. Who is managing 
the growth of the list, making sure that vulnerabilities are 
addressed, and reviewing the results of screening to determine 
if it is working as intended while protecting civil liberties?
    We have recommended that DHS collaborate with relevant 
agencies to develop a more current strategic plan and 
investment strategy for ensuring the most effective use of the 
watch list, and the Department agreed. We have also recommended 
that the Assistant to the President for Homeland Security and 
Counterterrorism ensure that a single entity, such as an 
interagency council, be given the authority to manage screening 
governmentwide, but the White House has not yet responded.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions.
    Chairman Thompson. Thank you for your testimony.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thompson. I now recognize Director Boyle to 
summarize his statement for 5 minutes.

 STATEMENT OF LEONARD C. BOYLE, DIRECTOR, TERRORIST SCREENING 
                             CENTER

    Mr. Boyle. Thank you very much, Chairman Thompson. Thank 
you for those kind remarks, and members of the committee.
    In the aftermath of September 11, 2001, the American people 
asked two very pertinent questions of their government: First, 
how did you allow people who so clearly intended to harm us to 
enter this country so easily? And secondly, once they were 
here, why didn't you do more to keep track of them and to find 
out what their plans were?
    It is those two critical gaps that the Terrorist Screening 
Center has stepped in to fill and has filled in an 
extraordinary fashion. By consolidating the 12 Federal watch 
lists that existed prior to 9/11 into a single terrorist 
screening database, by updating that database every day and 
exporting it to all of our customers, the Terrorist Screening 
Center has substantially enhanced the safety of the United 
States. Now when a State Department consular officer around the 
world considers a person's application for a visa to enter the 
United States, that consular officer has electronic access to 
the entire United States Government Intelligence Community and 
law enforcement community's best understanding of the persons 
around the world who mean to harm the United States. That is a 
factor that that consular officer can take into consideration 
in deciding whether to issue a visa to that person.
    Secondly, if a person seeks to enter the United States at 
one of our ports of entry from a visa waiver country, a Customs 
and Border Protection officer now again has access to that same 
information, the entire Federal Government's best understanding 
from the Intelligence Community and the law enforcement 
community of those persons around the world who mean to do us 
harm, and that CBP officer can consider that information in an 
effort to determine whether that person ought to be allowed to 
enter the United States.
    In both of those instances, those officers, should they get 
a hit against the database, call the Terrorist Screening Center 
where we have a 24-hour-a-day 7-day-a-week operation. Our 
calltakers respond to that call, have electronic access to the 
entire base of information regarding that person, and can 
provide that information to that officer so that he or she can 
make the best informed decision whether that person should be 
allowed to enter the United States.
    Finally, by providing that same information to State, 
county and municipal law enforcement officers, the Terrorist 
Screening Center helps to close that second gap. Now we have a 
force multiplier of 750,000 law enforcement officers, the first 
line of our defense who have access to that same information so 
that if, during the course of a routine police encounter, a 
police officer encounters someone who is suspected of being 
involved in terrorist activity, that police officer is aware of 
that, the police officer calls the Terrorist Screening Center 
and again gets access to the information that he or she needs, 
A, to protect himself and, B, to gather further information to 
help us protect the country against that threat. When that call 
is received at the Terrorist Screening Center, our analysts 
immediately forward the information to the FBI so that there 
can be a coordinated law enforcement response.
    That being said, it is certainly the case that despite the 
extraordinary accomplishments that the Terrorist Screening 
Center has achieved to date, we need to do better. We have 
accepted the recommendations of the Office of Inspector General 
and the General Accounting Office. We view them as a road map, 
a way to help us improve.
    I believe a fair assessment of the Terrorist Screening 
Center shows that the extraordinary mandate that was placed 
before it in September of 2003 has largely been satisfied, but 
now, as the organization matures, we have to develop even 
better processes to make sure that our information is current, 
accurate and thorough.
    We have adopted a number of responses to the Office of 
Inspector General's report. I will just touch briefly upon a 
couple of those, and we will be glad to answer any questions 
that may come about them.
    But in the first instance we are in the process of 
expanding our redress office because we well understand that 
while we have a solemn obligation to protect the safety of the 
American public, we have an equally solemn obligation to do so 
in a way that honors civil liberties and privacy protections. 
We have established a compliance officer within the Terrorist 
Screening Center whose responsibility is to make sure that we 
are complying with processes that we are putting in place 
consistent with the OIG's recommendations. And finally, we have 
brought on board a senior DHS official who serves now as our 
data integrity advisor to ensure that we don't have any gaps 
within our system that cause some of the data inconsistencies 
that were identified within by the OIG.
    Again, Mr. Chairman, I thank you for the opportunity, and I 
look forward to answering any questions you might have.
    Chairman Thompson. Thank you for your testimony.
    [The statement of Mr. Boyle follows:]

                  Prepared Statement of Leonard Boyle

    Good morning Chairman Thompson, Ranking Member King, and members of 
the Committee. Thank you for the opportunity to discuss the terrorist 
watch list, or Terrorist Screening Database, and the watchlisting 
process at large.
    Since it began operations on December 1, 2003, the Terrorist 
Screening Center (TSC) has assumed a critical role in securing our 
borders and the safety of the American people by providing to the 
nation's entire screening and law enforcement communities the 
identities of known and suspected terrorists. As directed by Homeland 
Security Presidential Directive 6 (Integration and Use of Screening 
Information), the TSC has combined the 12 previously existing terrorist 
watchlists and created the United States Government's single 
consolidated Terrorist Screening Data Base (TSDB). Every day, the TSC 
provides an updated list of known and suspected terrorists to screeners 
and law enforcement personnel. The TSC also provides:
        (1) A single coordination point for terrorist screening data;
        (2) A 24/7 call center to provide identification assistance to 
        screening agencies;
        (3) Access to a coordinated law enforcement response for any 
        encounter with a watchlisted person;
        (4) A formal process for tracking all positive encounters;
        (5) Feedback to the appropriate entities;
        (6) A redress process for any individual who believes they have 
        been improperly delayed or otherwise inconvenienced because of 
        the watchlist; and
        (7) A process for removing names from the watchlist when it has 
        been determined they do not have a nexus to terrorism.
    The TSC has significantly enhanced interagency cooperation in the 
post-9/11 culture where information sharing is a MUST. In fact, as the 
GAO report released on October 24, 2007 cites, ``The TSC plays a 
central role in the real-time sharing of information, creating a bridge 
among screening agencies.'' The TSC has not only assisted in 
eliminating historical cultural boundaries between and among the 
intelligence and law enforcement communities, but also has provided a 
physical mechanism to ensure information sharing is done in an 
efficient manner.
    As the GAO report correctly notes, while great strides have been 
made there is still room for improvement in the terrorist screening 
process. I must echo what my colleagues have said many times: In order 
to be successful in the war on terrorism, we must constantly improve, 
determining our weaknesses from within, and correcting them. The TSC's 
unique position as the U.S. Government's hub for all terrorist 
identification information allows the TSC to play a critical role 
regarding the GAO Executive Recommendations, especially with respect to 
identifying further screening opportunities while serving in a 
leadership role for the screening community.

TSC Initiatives
    In fact, the TSC has already moved forward in a number of areas, 
which will result in a more complete and efficient screening process.
        <bullet> TSC is working hand-in-hand with the Transportation 
        Security Administration (TSA) regarding its ``Secure Flight'' 
        initiative.
        <bullet> TSC participates in an interagency working group to 
        identify how to better use biometric data to enhance the 
        screening process.
        <bullet> While maintaining all privacy rules and policies, TSC 
        is undertaking information technology improvements on several 
        fronts, including ways to increase the ease with which our 
        screening and law enforcement customers are able to access the 
        TSDB.
        <bullet> In late 2005, TSC initiated, and continues to chair, 
        the Federal Identity Matching Working Group, which includes 
        participation by numerous agencies across the U.S. Government. 
        This group establishes guidelines for the standardized 
        measurement of identity matching and provides common test data 
        and tools to enable agencies to effectively evaluate their 
        systems. Additionally, TSC sponsors on-going independent 
        evaluations of commercial and government search engines, 
        separately and in combination with each other. This will result 
        in improved name matching, a key factor in enhancing TSC's 
        screening system, and facilitate creation of a search service 
        that provides direct TSDB access to other screening and law 
        enforcement agencies.

TSC Achievements
    One of the TSC's most recent accomplishments is the September 19, 
2007 execution of a multi-agency agreement on the terrorist watchlist 
redress process. The TSC terrorist watchlist redress process, 
established in January 2005, provides a full and fair review of any 
watchlist record that is the cause of an individual's complaint. The 
redress process seeks to identify any data errors and correct them, 
including errors in the watchlist itself. The TSC worked with the 
Privacy and Civil Liberties Oversight Board, and obtained cabinet-level 
commitments from the heads of participating agencies, to include the 
Attorney General, Secretaries of State, Treasury, Defense and Homeland 
Security, the Director of National Intelligence, and the Directors of 
the National Counterterrorism Center, Central Intelligence Agency, and 
Federal Bureau of Investigation, to support the redress process with 
appropriate resources and oversight from senior agency officials. 
Furthermore, this agreement ensures uniformity in the handling of 
watchlist related complaints and demonstrates the United States 
Government's commitment to protecting national security consistent with 
privacy and civil liberties.
    The TSC has also become a premier entity on the forefront of the 
global war on terrorism by establishing formal information sharing 
partnerships with our allies. The TSC has thus far signed agreements 
with six nations. These agreements provide our allies with access to 
the world's most comprehensive tool to identify terrorists, and we are 
the beneficiaries of their terrorist identity information. We continue 
to work with our allies to share information more efficiently, and 
those information gaps are shrinking rapidly. As a result, it is 
becoming much more difficult for terrorists and their supporters to 
hide. By teaming up with our foreign counterparts, we have effectively 
broadened the net with which known and suspected terrorists are 
identified and caught.

GAO Report
    The recent GAO review of Terrorist Watchlist Screening provided 
some critical feedback to all agencies involved in the watchlisting 
process. The TSC is working with our partners in DHS and the FBI to:
        <bullet> Identify a systemic approach to capitalize on all 
        watchlisting opportunities, including in the private sector and 
        with current and potential international partners;
        <bullet> Continually review and update terrorist screening 
        strategies; and
        <bullet> Identify clear lines of responsibility and authority 
        for terrorist screening.

GAO Report_Private Sector Screening
    Terrorist screening is currently conducted by an array of agencies 
protecting our nation's borders and our people from another terrorist 
attack. HSPD-6, HSPD-11 (Comprehensive Terror Related Screening 
Procedures) and their resulting initiatives, including the creation of 
the TSC, have greatly enhanced security at our borders. But simply 
enhancing border screening is not enough to identify those who may have 
already successfully assimilated into our culture, become established 
within our society and placed themselves in positions of trust in the 
private sector. Such persons would have the ability to carry out 
attacks on our critical infrastructure that could harm large numbers of 
persons or cause immense economic damage. Private sector screening is 
therefore critical to ensuring we identify watchlisted persons working 
as, or who have access to, critical infrastructure facilities that 
could be used to harm the American public. HSPD-6 mandates that the 
terrorist watchlist be made available to support private sector 
screening processes that have a substantial bearing on homeland 
security. The TSC is working closely with DHS to finalize guidelines to 
support private sector screening and to fulfill the mandate of HSPD-6.

GAO Report_Use of the Watchlist
    As the GAO report states, TSC customers receive TSDB data that 
suits their individual agency needs. Which TSDB records are exported to 
a particular customer depends on that customer's mission, legal 
authority, resources, and other considerations. For example, U.S. 
Customs and Border Protection (CBP) receives over 98% of the records in 
the TSDB to screen against threats at our borders. CBP has by far the 
broadest criteria concerning TSDB data, and therefore receives the 
greatest number of TSDB records. Other TSC customers, such as the 
Department of State (which screens applicants for visas and passports), 
have different criteria tailored to their mission and screening needs 
and therefore receive slightly less data. The State Department's visa 
screening process, for example, does not check against TSDB records on 
American citizens or Legal Permanent Residents, because they are not 
required to have a visa to enter the U.S. The TSC also exports nearly 
two-thirds of the TSDB to the National Crime Information Center (NCIC), 
where it is made available to federal, state, county, tribal, and 
municipal law enforcement officers. The TSC also sends a portion of the 
TSDB to the Transportation Security Administration as the ``selectee'' 
and ``no fly'' lists for use in air passenger screening.
    In FY 2006, as indicated in the GAO Report, 269 foreign persons 
were denied entry to our nation because they were determined to present 
an unacceptable risk of committing a terrorist act. Thousands of other 
individuals listed in the TSDB were encountered at our borders, or 
within the United States, and their whereabouts were made known to the 
FBI and other law enforcement agencies. These encounters often yield 
valuable information not only about the subject's whereabouts, but also 
his or her associates, interests, and intentions.
    These, and all matches to the watchlist, significantly enhance the 
FBI's ability to accurately assess current threats, to identify 
intelligence gaps and opportunities, and to further existing 
investigations. In sum, they help to ``connect the dots'' and make 
safer those whom we are sworn to protect. Through data quality 
assurance methods, an extensive nominations process and the redress 
process, the TSC continues to work to ensure that its data remains 
accurate, current and comprehensive, thus efficiently meeting our 
customers' screening needs.

OIG Report 07-41
    In addition to the feedback received from the GAO, the Department 
of Justice Office of the Inspector General (OIG) recently completed an 
audit. This audit focused on the data quality of the TSDB, including 
its nominations and redress processes. The report concluded that the 
TSC redress process was functioning well by providing appropriate 
resolutions to individuals' complaints and that the TSC had made 
significant improvements in its nominations and quality assurance 
processes since the previous audit in 2005. The report did find areas 
where the TSC needed to improve, and made 18 recommendations to the TSC 
and the FBI. The FBI and TSC's concurrent response, with the plan to 
address each recommendation, is included in Appendix V of the OIG 
report. The TSC agrees with each of the report's recommendations, and I 
am pleased to report the TSC has initiated corrective actions on each 
of these recommendations.

Conclusion
    In the four short years since its inception, the TSC has 
significantly enhanced the safety of the nation and has become a 
critical player in the war on terrorism. We are committed to achieving 
new heights, and continuing to make America a safer place through 
balancing terrorist screening and the rights of our fellow citizens. 
This can only be accomplished through a continuous process of internal 
and external review, and eternal vigilance. Chairman Thompson, Ranking 
Member King, and members of the Committee, thank you again for the 
opportunity to address this esteemed body, and I look forward to 
answering your questions.

    Chairman Thompson. I now recognize Ms. Kraninger to 
summarize her statement for 5 minutes.

     STATEMENT OF KATHLEEN KRANINGER, DIRECTOR, SCREENING 
      COORDINATION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Ms. Kraninger. Thank you, Mr. Chairman and members of the 
committee. It is a pleasure to appear before you today. I also 
appreciate this committee's steadfast support of the Department 
and the many actions you have taken to improve the Department's 
effectiveness.
    One of the most important tools in the fight against 
terrorism is the U.S. Government's consolidated terrorist watch 
list. The implementation and the use of this watch list has 
enhanced the Department's multilayered programs to detect 
terrorist travel and to keep dangerous people out of the 
country. But as has been noted by my colleagues on this panel 
and in the committee statements, the system is not perfect.
    I speak today not as a nominator to the watch list, but as 
a consumer of TSC's products, and as the largest screening 
agency and user of the watch list, DHS has a significant 
interest in ensuring the effective and appropriate application 
of the watch list in our screening programs. We are as troubled 
by errors and inefficiencies in the use of the watch list as 
anyone and for a number of reasons, including the annoyance it 
causes the traveling public, but, most importantly, because it 
is a waste of our resources. The time that we spend looking at 
someone who is not the right person is time spent not looking 
in the right place.
    I think it is fair to say that we have had a number of 
successes, though it is an iterative process where we 
continuously seek ways to improve our operations. I would like 
to take a moment to outline some of the improvements to date.
    Since 9/11, we have instituted a multilayered approach to 
screening individuals seeking to enter the United States. That 
starts overseas, as my colleagues have noted, with the 
Department of State's visa lookout system. It continues with 
airline checks of passenger information against the no-fly 
selectee list. That includes capture of data on all travelers 
to the U.S. through our Advanced Passenger Information System 
and passenger name records. And, of course, the final check 
takes place at the port of entry by our Customs and Border 
Protection officers who determine whether an individual should 
be admitted to the United States.
    Yet we know that these layers can be improved. The 9/11 
Commission and Congress have pressed the Department to conduct 
watch list matching prior to departure in a foreign port. It 
has been a complex development effort, but we are proud to say 
that beginning early next year, we will be able to accomplish 
that through the APIS predeparture system.
    APIS predeparture is the first step toward taking over the 
no-fly and selectee list matching from air carriers. As of 
today, commercial air carriers are the ones responsible for 
conducting those checks for all flights.
    In August 2007, DHS took a major step forward to address 
this vulnerability by publishing the Secure Flight notice of 
proposed rulemaking. Secure Flight will make watchlisting more 
effective, efficient and consistent, offering improvements in 
both security and customer service for the traveling public. 
For example, Secure Flight will utilize realtime watch list 
information, conduct consistent checks across airlines, provide 
us the capability to calibrate our screening based on threat 
information, reduce the impact of false matches on the 
traveling public, and give us more time to coordinate an 
appropriate law enforcement response to potential threats.
    Despite the progress we have made and the important goals 
of this program, we are facing a critical funding shortfall. 
The current funding level under the continuing resolution for 
Secure Flight is significantly lower than the President's total 
budget request of $74 million. DHS is working diligently with 
the administration, with Congress, with this committee to 
address that issue. However, with the current funding level, 
DHS will not be able to continue with the program and will have 
to suspend essential development contracts and refrain from 
beginning operational testing with the airlines.
    Recognizing the impact of screening on the public, 
particularly without Secure Flight in place, DHS has 
implemented DHS TRIP, which provides travelers with essential 
contact to DHS to identify their adverse screening experiences 
and address them. DHS TRIP collects the minimum personal 
information necessary to address the particular problem the 
traveler identified.
    Between February 20 and October 26, DHS reported nearly 
16,000 requests for redress; 6,600 of those cases cannot be 
processed yet, and that is primarily because the traveler has 
not provided a copy of their identification document and the 
signed Privacy Act notice statement that is required for us to 
actually process their request. Yet we have successfully 
adjudicated 7,400 of those cases. Most of those cases result in 
adding the name of the individual to the TSA cleared list. That 
cleared list is used by the airlines to distinguish false 
matches from positive matches when they conduct their watch 
list matching. But that matching done today, of course, is not 
as effective as it will be once the government takes over this 
process with Secure Flight.
    Taken together, these measures provide enhanced 
capabilities and provide a good picture of our progress. We 
have had a number of successes, and my testimony certainly 
addresses those successes.
    We appreciate the opportunity to be here today. We are 
constantly seeking ways to improve our processes and respond to 
GAO and IG reports and this committee's requests, and we 
definitely appreciate. Any questions that you have, I am happy 
to respond to. Thank you.
    Chairman Thompson. Thank you very much.
    [The statement of Ms. Kraninger follows:]

                Prepared Statement of Kathleen Kraninger

INTRODUCTION
    Thank you, Chairman Thompson, Ranking Member King, and Members of 
the Committee for the invitation to appear today. I appreciate this 
Committee's steadfast support of the Department and your many actions 
to improve our effectiveness.
    At the outset, I would like to acknowledge the strong working 
relationships we share with the Director of National Intelligence 
(DNI), the Federal Bureau of Investigation (FBI), the Terrorist 
Screening Center (TSC), and the National Counterterrorism Center 
(NCTC), as well as many other federal, state, and local partners 
working around the clock to protect our country and the American people 
from terrorist attacks.
    None of us alone can keep our nation safe from the threat of 
terrorism. Protecting the United States is a mission we share and one 
that requires joint planning and execution of our counterterrorism 
responsibilities; effective information collection, analysis, and 
exchange; and the development of integrated national capabilities.
    One of the most important tools in the fight against terrorism is 
the U.S. Government's consolidated Terrorist Watchlist. The 
implementation and use of the Terrorist Watchlist has enhanced the 
Department of Homeland Security's (DHS's) screening programs. The use 
of this single tool across all federal, state and local law enforcement 
agencies has become one of our most valuable resources in our 
coordinated fight against terrorist activity. DHS works closely with 
the FBI and the Office of the DNI to review screening opportunities, 
implement watchlist enhancements and address potential vulnerabilities. 
As the largest screening agency, DHS has a significant interest in 
ensuring the effective and appropriate application of the watchlist in 
screening programs. This is an iterative process of continual review 
and improvement. As one example, the Screening Community is focused 
today on aligning biometric watchlist information in a more automated 
fashion with biographic records to provide even more efficient 
screening capabilities.

DHS as a Screening Agency
    As you know, U.S. screening efforts start well before individuals 
arrive in the U.S. Most important, we have a number of information 
sharing activities with our international allies in the War on Terror. 
The international community has put significant resources into 
detecting and tracking terrorist travel across the globe.
    Our overseas layers of security related to screening of individuals 
prior to arrival in the United States include: Department of State 
(DOS) visa application processing, the Immigration and Customs 
Enforcement (ICE) Visa Security Units that support DOS screening, and 
the new Immigration Advisory Program (IAP) that involves screening of 
travelers by U.S. Customs and Border Protection (CBP) at airports of 
departure. Currently, CBP maintains IAP deployments in Amsterdam, the 
Netherlands, Warsaw, Poland, London, Tokyo-Narita, and Frankfurt, 
Germany. IAP began in Saudi Arabia in 2003, and expanded to four 
locations in three countries in 2005. Since January 2007, Visa Security 
Units have been deployed to four additional locations, with plans to 
deploy to one additional location in November 2007. Watchlist 
information supports all of these front line officers in their mission 
to keep dangerous people out of the U.S.
    Information-based screening represents the next and most intensive 
opportunity for screening to prevent terrorists and terrorist weapons 
from entering the U.S. Leveraging passenger information from both 
Advance Passenger Information and Passenger Name Record (PNR) data in 
advance of arrival allows us to check the terrorist watchlist, criminal 
wants and warrants, and travel history as well as search for 
connections between known and unknown terrorists. This year we also 
reached an important agreement with the European Union that will allow 
us to continue accessing PNR data while protecting passenger privacy.
    While we are conducting these checks prior to arrival, DHS is 
moving toward its Advance Passenger Information System (APIS) pre-
departure requirement to perform watchlist checks in advance of 
boarding. Published in August 2007, the final rule implements the 
Intelligence Reform and Terrorism Prevention Act of 2004, which 
requires that electronic manifest information for passengers onboard 
commercial aircraft arriving in and departing from the United States, 
and passengers and crew onboard arriving and departing commercial 
vessels, be vetted by DHS against a government-established and 
maintained terrorist watch list prior to departure of the aircraft or 
vessel.
    APIS pre-departure is a first step to taking over the No Fly and 
Selectee list matching responsibility from air carriers. As you know, 
since 9/11, the U.S. Government has been making the No Fly and Selectee 
lists available to commercial air carriers flying into, out of, or 
within the U.S. for passenger prescreening. A nominating agency can 
recommend that a known or suspected terrorist (KST) be placed on the No 
Fly or Selectee list if the individual meets specific criteria for 
inclusion on that list, consistent with the TSC's No Fly and Selectee 
Lists Implementation Guidance. TSC is ultimately responsible for 
deciding whether to place individuals on the No Fly or Selectee Lists, 
which are subsets of Terrorist Screening Data Base.
    Today, commercial air carriers are responsible for conducting 
checks in advance of boarding pass issuance, and they must notify the 
Transportation Security Administration (TSA) where there is a match to 
the No Fly list. TSA then notifies the TSC and the FBI, which 
coordinate the operational response with law enforcement and other 
agencies and foreign partners as appropriate. Air carriers must also 
ensure that a match to the Selectee list is subject to secondary 
screening prior to boarding an aircraft. Note that there are reasons 
aside from a Selectee match why an individual may be subject to 
secondary screening including the Computer-Assisted Passenger 
Prescreening system and random selection.
    DHS is preparing to assume responsibility for No Fly and Selectee 
watch list matching for both international and domestic air passengers 
through Secure Flight. In August 2007, DHS took a major step forward by 
publishing the Secure Flight Notice of Proposed Rulemaking. Secure 
Flight, as outlined in the proposed rule, will make watchlist matching 
more effective, efficient, and consistent, offering improvements in 
both security and customer service for the traveling public. DHS 
expects Secure Flight to add a vital layer of security to our nation's 
commercial air transportation system while maintaining the privacy of 
passenger information. Our watchlist matching capabilities will be 
significantly enhanced when the government takes over this 
responsibility from air carriers for a number of reasons including the 
following:
        <bullet> DHS uniformly will utilize real-time watchlist 
        information;
        <bullet> Matching will be uniformly conducted by one process 
        with consistent results applied across airlines;
        <bullet> The system can be effectively and swiftly calibrated 
        to meet the current threat--for example by increasing the 
        number of potential matches that are generated for an 
        intelligence analyst's review, based on an elevated threat;
        <bullet> Distribution of the watchlists themselves will be more 
        limited--protecting that sensitive information;
        <bullet> DHS will have passenger information sooner and will be 
        able to adjudicate potential matches prior to the individual's 
        arrival at the airport, thereby reducing the impact of false 
        matches on the traveling public; and
        <bullet> DHS will have more time to coordinate an appropriate 
        law enforcement response to potential threats and an enhanced 
        capability to stop known or suspected terrorists before they 
        get to the passenger screening checkpoints.
    DHS has made substantial progress on Secure Flight, which will 
establish a more consistent and uniform prescreening process, resulting 
in enhanced security and reducing potential misidentification issues 
for legitimate travelers. Despite this progress, the program faces a 
critical funding shortfall. The current funding level under the 
Continuing Resolution is significantly lower than the President' total 
budget request of $74 million ($53 million plus $21 million in a budget 
amendment submitted this week). In addition, both the House and Senate 
appropriations marks do not provide adequate funding to move the 
program to the next phase, operational testing. DHS is working 
diligently with the Administration and the Congress to address this 
issue. However, if the current funding level remains, DHS will not be 
able to operate the program. In mid-December, we will have to suspend 
essential development contracts and refrain from beginning benchmark 
and operational testing with airlines. The lack of funding will 
severely delay rollout of the program and increase costs and risks.
    Once inside the U.S., a variety of terrorist-related screening 
opportunities exist, requiring the discipline in applying risk-based 
screening measures to ensure that resources are focused accordingly, 
threats are appropriately addressed and civil liberties and privacy are 
upheld. DHS screens immigration benefits applicants and critical 
infrastructure sector workers, consistent with its legal authority 
through programs such as the Transportation Workers Identification 
Credential program.
    With our current security layers, we have prevented thousands of 
dangerous people from entering the United States, including individuals 
suspected of terrorism, murderers, rapists, drug smugglers, and human 
traffickers. In Fiscal Year 2007, CBP alone encountered 5,953 positive 
watchlist matches.
    I should also dispel some myths about DHS' information-based 
screening programs. A person' union membership, sexual orientation, and 
eating habits are irrelevant to DHS's screening programs. All of DHS's 
information-based screening systems are designed to match travelers 
against intelligence and/or enforcement information only. Accordingly, 
DHS only actively seeks data pertinent to screening. However, while 
screening arriving international passengers via the Automated Targeting 
System, we may, at times, receive ancillary information from an air 
carrier or from the individual concerned that could be considered 
``sensitive.'' For example, a carrier may note in reservation data that 
a traveler is blind and will need help finding his seat or that the 
travel agency that booked the ticket was UnionPlus. From this ancillary 
information a person could deduce facts about the traveler. However, 
very pertinent information may also be stored in the same record--
including names and passport data. When DHS does receive sensitive data 
it is because of the need to collect this other relevant information. 
In these instances, special, stringent protections are put in place to 
prevent DHS users from viewing any sensitive information unless there 
is a specific case-related necessity that has been verified by a senior 
official. DHS is transparent about the rules it has put in place to 
prevent sensitive information from being used for screening. We have 
published them in our System of Records Notice for the Automated 
Targeting System and have made similar public representations to the 
European Union.

Factors Relevant to Watchlist Matching Effectiveness
    Not only is it important to ensure that the watchlist itself is 
accurate and appropriate to the screening opportunity, but the 
robustness of the information that is matched against the watchlist is 
a key factor in effective screening. What level of assurance do we have 
in the individual' presented identity? What information is provided? As 
Director Boyle notes in his testimony, different screening 
opportunities present different challenges. At the border, CBP has many 
tools at its disposal to identify and screen individuals entering the 
U.S.--whereas in the current domestic aviation context, we are 
currently reliant upon the name matching capabilities of the air 
carriers.
    The use of biographic information in screening including reliance 
on names to identify known of suspected terrorists, has its 
limitations. For that reason, DHS is pursuing efforts to enhance the 
effectiveness of the screening conducted at all opportunities by 
promoting secure identification and the use of biometrics, where 
appropriate and feasible. US-VISIT biometrics collection that starts 
overseas during the visa application process provides a significant 
layer of security. As we move to 10-print collection, our ability to 
match that information against latent prints from the battlefield or 
other locations to identify unknown terrorists increases substantially.
    Secure identification also enhances our ability to screen 
effectively. Identification documents often provide the baseline 
information for conducting screening. For that reason, DHS is pursuing 
implementation of the Western Hemisphere Travel Initiative (WHTI) and 
REAL ID. Both programs are recommendations of the 9/11 Commission, who 
so aptly noted that ``[f]or terrorists, travel documents are as 
important as weapons.'' By requiring secure documents to enter the 
United States, or board commercial aircraft, we will make it harder for 
people to use fraudulent credentials to travel or cross our borders, 
and we will make it easier for our CBP Officers to separate real 
documents from fake, enhancing our security and ultimately speeding up 
processing.

Misidentification and Redress
    Recognizing the impact of screening on the public, particularly 
where only name-based checks are conducted, agencies have incorporated 
redress into their screening programs. DHS has implemented the DHS 
Traveler Redress Inquiry Program (DHS TRIP), which provides a central 
gateway for travelers to obtain information about screening and redress 
as well as a central contact to DHS regarding their adverse screening 
experiences. Travelers, regardless of their nationality, citizenship or 
residency, can submit inquiries via website, email, or postal mail. The 
DHS TRIP Program Office then ensures that the cases are reviewed and 
resolved, to the extent possible, and that travelers receive an 
official response. The DHS TRIP Program Office, using its redress 
management system, assigns redress requests to the Department of State 
or appropriate DHS agencies, ensures coordination of responses, and is 
instituting performance metrics to track progress, giving leadership 
visibility into the types of inquiries DHS receives.
    Between February 20, 2007, and October 26, 2007, DHS TRIP recorded 
15,954 requests for redress in its redress management system and 
approximately 7,400 cases have been adjudicated and letters have been 
sent to the travelers. The majority of TRIP requests that remain in 
process are awaiting submission of supporting documentation by the 
traveler.
    Once a redress request associated with No Fly and Selectee List 
matching is processed, the cleared individual is also added to the TSA 
Cleared List that is provided to air carriers. The Cleared List is 
currently used by the airlines to distinguish false matches from actual 
matches as they perform No Fly and Selectee List matching.
    For international travel, CBP has implemented a process that 
automatically suppresses specific lookout matches, including terrorist 
watchlist matches, in its screening systems when a CBP Officer at a 
port of entry encounters an individual that CBP has previously 
determined to be a false positive match. When such an encounter is 
made, the CBP Officer can make a record of this individual's 
information into the Primary Lookout Override (PLOR) which is an 
automated system that automatically suppresses that specific hit the 
next time that person is encountered, unless new derogatory information 
has become available. As a result, CBP does not have to resolve the 
false match each time the person travels. From program inception in 
February 2006 through September 2007, CBP has created 71,487 PLOR 
records.

Quality Assurance of the Watchlist
    In addition to the efforts described above, TSC analysts also 
conduct various proactive quality assurance projects with support from 
DHS. We recently completed a review of all records on the No Fly List 
and are near completion of a record-by-record review of the Selectee 
List. Quality assurance projects like the No Fly and Selectee list 
reviews ensure that the most current, accurate, and thorough watchlist 
information is made available to DHS and other screening agencies, and 
that records are updated in a timely fashion. Such regular updates both 
improve the quality of the screening being conducted and decrease the 
instances of screening misidentifications.
    The U.S. Government is doing much to ensure travelers have the 
opportunity to seek redress and to enhance the effectiveness of the 
watchlisting process itself. At the same time, it is worth noting what 
GAO described in its September 2006 report (GAO-06-1031)--that although 
the total number of misidentifications is significant, they represent a 
tiny fraction of the total screening transactions that are conducted on 
the hundreds of millions of travelers DHS encounters each year.
    The DHS Screening Coordination Office, the DHS TRIP Office, and the 
screening agencies responsible for addressing redress requests continue 
to refine the concept of operations for DHS TRIP as well as to consider 
next phases for enhancing the Department's redress capabilities.

Response to GAO Audit
    DHS agrees with many of the findings in the GAO Terrorist Watch 
List Screening report. DHS takes GAO's recommendations seriously and, 
in fact, has had ongoing efforts to address them.
    GAO recommended that the Secretary of Homeland Security ``. . 
.develop guidelines to govern the use of watchlist records to support 
private-sector screening processes that have a substantial bearing on 
homeland security.''
    In response to this recommendation, DHS is drafting guidelines to 
establish and support private sector screening for those respective 
private sector entities that have a substantial bearing on homeland 
security. These guidelines will prioritize private sector entities by 
critical infrastructure sector that are necessary for the functioning 
of our society. For these purposes, critical infrastructure may 
include, but is not limited to, agriculture, food, water, public 
health, emergency services, government, defense industrial base, 
information and telecommunications, energy, transportation, banking and 
finance, chemical industry and hazardous materials, postal and 
shipping, and national monuments and icons. In addition to the draft 
guidelines, DHS anticipates preparing an information collection request 
under the Paperwork Reduction Act, Privacy Impact Assessment, and 
System of Records Notice, which would address any DHS private sector 
screening program.
    GAO also recommends that the Secretary of Homeland Security 
``develop and submit to the President through the Assistant to the 
President for Homeland Security and Counterterrorism an updated 
strategy for a coordinated and comprehensive approach to terrorist-
related screening as called for in HSPD-1'' as well as ``an updated 
investment and implementation plan that describes the scope, 
governance, principles, outcomes, milestones, training objectives, 
metrics, costs, and schedule of activities necessary for implementing a 
terrorist-related screening strategy, as called for in HSPD-11.'' The 
updated HSPD-11 report is under development and is forthcoming.
    The Screening Community has taken extensive steps since 2004 to 
enhance terrorist screening and many of those efforts that are specific 
to the watchlist have been outlined in this testimony. Additionally, at 
the request of the Assistant to the President for Homeland Security and 
Counterterrorism, DHS is providing such an update to the Homeland 
Security Council.

CONCLUSION
    On September 11, 2001, no one would have predicted the passage of 
six years without another terrorist attack on U.S. soil. Some believe 
our country hasn't suffered another attack because we've been lucky. 
Others contend the terrorist threat has diminished and we are no longer 
in danger.
    I disagree. Over the past six years, we have disrupted terrorist 
plots within our own country and we have turned away thousands of 
dangerous people at our borders. We have also witnessed damaging 
terrorist attacks against some of our staunchest allies in the war on 
terror.
    I believe the reason there have been no additional attacks against 
our homeland is because we have successfully raised our level of 
protection and we have succeeded in frustrating the aims of our 
enemies. That is not to say our efforts have been flawless or that our 
work is done. On the contrary, we must move forward aggressively to 
build on our success to keep pace with our enemies.
    Our improvements to passenger and cargo screening, critical 
infrastructure protection, and intelligence fusion and sharing must 
continue. While no one can guarantee we will not face another terrorist 
attack in the next six years, if we allow ourselves to step back from 
this fight, if we allow our progress to halt, if we fail to build the 
necessary tools to stay ahead of terrorist threats, then we will most 
certainly suffer the consequences.
    I would like to thank this Committee for your ongoing support for 
our Department. We look forward to working with you and with our 
federal, state, local, and private sector partners as we continue to 
keep our nation safe and meet our responsibility to the American 
people.

    Chairman Thompson. I thank the witnesses for their 
testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    Director Boyle, there are people on the Web saying that if 
I am on the list, I can get around it by using a fake ID or 
changing my name. Is this true? And if so, what protections are 
in place to close this obvious loophole?
    Mr. Boyle. If a person, Mr. Chairman, successfully adopts 
another identity, and law enforcement or the Intelligence 
Community doesn't become aware of it, then that does create a 
vulnerability and an opportunity for a person to evade 
screening. That, in fact, is why the number of records in the 
watch list is as large as it is. As I believe the members of 
the committee are aware, although there are 850,000 or 860,000, 
approximately, records in the terrorist screening database, 
that represents a far fewer number of human beings because we 
create a separate record for every alias that a person might 
use, for every identifier that a person might use, so that if 
that person has a second passport or uses a second date of 
birth, that creates a separate record in an effort to catch 
people who are trying to disguise their identities to 
circumvent screening and watchlisting.
    The ultimate answer to your question, Mr. Chairman, is the 
greater use of biometrics to try to capture the true identity 
of persons who are traveling and who are encountered. We are in 
the process of a long-standing working group with all of our 
partner agencies to develop a better use of biometrics, the use 
of fingerprints, facial imaging and other emerging 
technologies, to try to better capture the true identity of a 
person. This issue, of course, is one that presents a great 
deal of challenges, both technological and legal, but they are 
challenges that we are working through every day in an effort 
to develop a biometric system.
    Chairman Thompson. Well, I think we all have heard about 
biometrics before, but for right now, if Norm Dicks is on the 
list, and Norm Dicks changes his name, then our present system 
would have difficulty picking him up; am I correct?
    Mr. Boyle. We have to rely on our sources of information to 
try to determine that Norm Dicks, in fact, did change his name 
or in some other way changed his identity so that we could add 
that record. But if law enforcement or the Intelligence 
Community doesn't pick up on that name change, yes, that 
creates a vulnerability.
    Chairman Thompson. Thank you.
    Ms. Kraninger, one of the intents of the 9/11 
recommendations was to have a person designated at every 
airport so that if someone would feel that they should not be 
on the list, then there will be a redress individual identified 
so that process could start. Where are we in this process at 
this point?
    Ms. Kraninger. Earlier this year we did begin conducting 
redress through a DHS consolidated process through DHS TRIP, 
and we have--TSA designated as the executive agent of the 
program, and they manage that program today to accept requests 
from the public, to address the problems that each individual 
is having. And it is narrowly tailored to, again, address for 
privacy reasons the problem that the public identified. So if 
an individual says that they are having problems with domestic 
screening, which is the vast majority of the issues that are 
being raised, then we look at that case, and most likely it 
results in adding that person's name to the cleared list.
    Chairman Thompson. Right. But if I go to Reagan National, 
and I am denied the ability to get on an airplane, who at 
Reagan National is the redress person?
    Ms. Kraninger. In the case of a no-fly match, that airline 
cannot actually determine affirmatively whether that person is 
or is not the match. They actually have to contact TSA 
immediately upon identifying that person, and law enforcement 
is called in. The appropriate response is determined right on 
the scene, because it is a serious matter to actually prohibit 
someone from boarding a flight. And so from that respect, it is 
something that is taken very seriously.
    Chairman Thompson. Yeah. Well, I think the 9/11 bill 
mandated that a redress individual would be identified at each 
airport, and I think the bill passed overwhelmingly. And so 
what we are just trying to say is where are you along the way 
of having the individuals identified at airports so that the 
traveling public would know where to start the process? If they 
deem themselves not eligible for the list, where can they 
start?
    Ms. Kraninger. Something that we are working really hard on 
is communication about DHS TRIP and about the process people 
have to follow, and that absolutely starts at the airport. We 
have a sheet we are putting out so that people can start that 
process and understand it right off the bat.
    Chairman Thompson. I will say it again. Where are you along 
the way of identifying someone at every airport to address the 
redress concerns of the traveling public? I mean, that is all. 
Do you plan to implement it?
    Ms. Kraninger. Yes, Mr. Chairman. It is a communications 
effort. And the Federal security director at the airport is 
responsible for dealing with the cases, such as the one that 
you noted, where someone is prohibited from boarding a flight. 
That is their responsibility to address that.
    Chairman Thompson. The FSD?
    Ms. Kraninger. Absolutely. With the individual, with the 
appropriate law enforcement and with the airline.
    Chairman Thompson. Thank you.
    Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    Questions for Mr. Boyle, please. On August 25, 2007, there 
was a front-page article in The Washington Post, ``Terrorist 
Screening Center Is Criticized for Not Resulting in As Many 
Arrests as Suspected Terrorists.''
    So without getting into the details, can you confirm if 
there have been any arrests that have occurred when an 
individual is found to be on that list?
    Mr. Boyle. Yes, sir. There have. And, in fact, with the 
opening remarks that you made, you noted a couple examples of 
arrests that have been made, and there have been many others.
    But I do think it is important to point out that the 
critical value that the Terrorist Screening Center provides is 
the ability to identify potential threats as they attempt to 
enter the country or as they are encountered by State and local 
police officers around the country so that we can gather that 
information, provide it to the FBI, provide it to State and 
local law enforcement, so that there is a more comprehensive 
understanding of the threats that are faced around the country 
and a better ability to connect the dots, as the phrase has 
been used.
    Mr. Reichert. So there were known terrorists arrested?
    Mr. Boyle. There have been. Yes, sir.
    Mr. Reichert. Recognizing that we are getting into some 
very sensitive information, a simple yes or no will do on these 
next questions. In that same article, a spokesperson for the 
Terrorist Screening Center indicated that an Egyptian named 
Omar Ahmed Ali was prevented from entering the United States 
because he was on a government terrorist watch list. Is this 
true?
    Mr. Boyle. Yes, sir.
    Mr. Reichert. Can you confirm that the individual Omar 
Ahmed Ali is the same individual identified by Qatar and 
Egyptian sources as having detonated himself on Saturday, March 
19, 2005, outside a theater near Doha in an apparent suicide 
attack?
    Mr. Boyle. Yes, sir.
    Mr. Reichert. Also moving on to the use of the Internet and 
with some creative Googling that the committee staff has 
accomplished here, they identified 10 suspected aliases for 
Osama bin Laden. Let's assume that bin Laden uses two separate 
birthdates on his travel documentation, and since Interpol 
currently has a list of 6.7 million lost or stolen passports, 
let's also assume that bin Laden could have two different 
passports. He might have more. But let's just say he has got 
two passports. Would it be true that then the TSC would have 
some 40 records for this one individual?
    Mr. Boyle. Yes, sir. In fact, there are particular 
individuals within the terrorist screening database for whom we 
have dozens of records for the very reason that you point out, 
because we are concerned about them mixing and matching 
aliases, alternate dates of birth, et cetera.
    Mr. Reichert. So you are saying there is more than one 
individual that has numerous records?
    Mr. Boyle. Thousands, sir.
    Mr. Reichert. Thousands.
    I just want to make a point here. In my personal experience 
with my law enforcement background and my career, this makes 
perfect sense to me in trying to put a list of suspects 
together or even victims. I worked a serial murder case, one 
victim having several names, 10 different birthdates, five or 
six different addresses. This is all I am dealing with on a 
very small scale compared to what you are trying to deal with. 
And trying to track the identity of a person with a few number 
of birthdates, several addresses, license plate number changes, 
identity changes, different hair colors, those sorts of things, 
I can really see the difficulty that you have here with the 
hundreds of thousands of names and the possibilities that you 
have to deal with.
    The computer system that you are using, you are sharing 
information with other agencies involved in tracking this list; 
is that correct.
    Mr. Boyle. Yes, sir.
    Mr. Reichert. Kathy, Ms. Kraninger, recognizing the facts 
and figures that were redacted from a publicly available 
version of these reports, we won't get into the specifics, but 
I want to make sure it provides some clarity for the record. 
Can you tell me with a simple yes or no answer, has the use of 
the consolidated watch list resulted in any arrests inside the 
United States?
    Ms. Kraninger. Yes, they have, sir, both at the port of 
entry with CBP officers and certainly, as Director Boyle 
indicated, within the United States. There have been arrests 
for terrorist--and nonterrorist-related reasons.
    Mr. Reichert. I yield back my time.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Washington Mr. Dicks 
for 5 minutes.
    Mr. Dicks. Well, I am trying to get an answer, Ms. 
Kraninger. And I hope you can give me a better answer than we 
got last time you were here.
    The President signed Homeland Security Presidential 
Directive 11. Among other things, his directive required the 
Secretary of Homeland Security in coordination with the heads 
of appropriate Federal departments and agencies to submit two 
reports to the President through the Assistant to the President 
for Homeland Security related to the government's approach to 
terrorist-related screening. The first report was to outline a 
strategy to enhance the effectiveness of terrorist-related 
screening activities by developing comprehensive and 
coordinated procedures and capabilities. The second report was 
to provide a prioritized investment and implementation plan for 
detecting and interdicting suspected terrorists and terrorist 
activities.
    Specifically, the law--the plan was to describe the scope, 
governance, principles, outcomes, milestones, training 
objectives, metrics, cost and schedule of activities to 
implement the U.S. Government's terrorist-related screening 
policies. Now, Ms. Larence, the GAO says that this hasn't been 
done; is that correct?
    Ms. Larence. There was a report that was submitted in 
November of 2004, but it never came back out of the White 
House. We are recommending it is time to update those.
    Mr. Dicks. Now, Ms. Kraninger, what happened to this 
report? I called down there at your suggestion, talked to Fran 
Townsend. She could barely remember this because it was 2004, 
and she said, I think we sent this report back to Ms. Kraninger 
to be updated and fixed. There was some corrections made. But 
you said at the time it went to the White House, and you had no 
idea what happened to it.
    Now, I cannot believe that on a Presidential directive 
there isn't any action taken--the thing has never been 
approved, as far as I know, on two important things that relate 
to the supervision of the Terrorist Screening Center. I mean, 
as I understand it, nobody--Mr. Boyle only reports to the 
President of the United States because these plans weren't 
implemented. I think this is very serious. Can you explain what 
has happened here between DHS and the White House on 
Presidential Directive 11?
    Ms. Kraninger. Mr. Dicks, I appreciate the question and the 
concern. It is something we do take seriously. We did complete 
the two reports and submit those to the Homeland Security 
Council. I cannot speak for them in terms of what their 
reaction is.
    Mr. Dicks. They said they sent them back to you.
    Ms. Kraninger. Right.
    Mr. Dicks. Is that not right? Is that inaccurate?
    Ms. Kraninger. We do not have a record of that. However, we 
have been asked to provide an update of that, and recently we 
did so.
    Mr. Dicks. Can we have a meeting between yourself, Ms. 
Townsend and myself to get this straightened out? I think the 
committee deserves better than what we have received. I think 
the President deserves better than what he has received. If 
this directive was given by the President of the United States, 
and nothing has happened since 2004, I mean, that is not 
acceptable, is it?
    Ms. Kraninger. I would not say that nothing has happened, 
sir, but I appreciate the concern. I am happy to support----
    Mr. Dicks. But the plan hasn't been approved. It hasn't 
been--it hasn't been approved by anyone. It has just been sent 
down there.
    And, Mr. Boyle, who do you report to? Who has supervision 
over your agency?
    Mr. Boyle. We are administered by the FBI, and I report 
through the national security branch to Executive Assistant 
Director Hulon, ultimately to Director Mueller.
    Mr. Dicks. Would if be helpful if the Presidential 
Directive Number 11 were implemented? Would that give you 
better guidance to do your job?
    Mr. Boyle. Well, we work very closely with the Department 
of Homeland Security, sir. We have no problems in dealing with 
our partner agencies. I believe we have a very clear mandate as 
to our responsibilities, and which we are discharging. So I 
have no issues with how we relate to the Department of Homeland 
Security or with the clarity of directives that we receive.
    Mr. Dicks. Ms. Kraninger, going back to you, is there a 
need for Presidential Directive 11, or is what you are 
basically saying is, we haven't responded to it; we sent in the 
reports, we don't know what happened to them, so it doesn't 
really make any difference?
    Ms. Kraninger. The Presidential Directive did outline a 
direction to be taken with respect to priorities and 
opportunities, and we have executed on those with the Terrorist 
Screening Center, looking at the opportunities we have.
    Mr. Dicks. But the plan was supposed to be sent back to the 
White House and approved, and that has never happened; isn't 
that correct?
    Ms. Kraninger. That is correct, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We will recognize the gentleman from Florida Mr. Bilirakis 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Ms. Larence, in your written testimony you noted that 
actions taken in response to encountering watch-listed 
individuals most often resulted in the questioning and then 
releasing of those individuals because there was no sufficient 
evidence of criminal or terrorist activity to warrant further 
legal action. Do you believe that there is a disconnect between 
the theoretical purpose of the list and its practical 
application?
    Ms. Larence. Sir, the reason that that occurs is the way 
that agencies nominate individuals to the watch list, the 
criteria that they use. And what we determined is they are 
fairly conservative about adding people to the watch list and 
have a relatively low bar because they want to make sure they 
don't miss any threats. That is really, we think, a policy call 
on the Congress's part to determine, you know, where that bar 
should be.
    Mr. Bilirakis. How can we justify releasing the majority of 
encountered individuals if they have met the standards of 
reasonableness for inclusion on the watch list, which they are 
reasonably suspected of having possible links to terrorism? 
Does this indicate a problem or a weakness somewhere in the 
process? Does anyone else on the panel want to answer that 
question as well, please?
    Ms. Larence. People may be added to the watch list because 
they are undergoing an FBI investigation. And so the links to--
the possible links to terrorism are very tenuous, or they might 
have certain affiliations. And so the FBI is interested in 
determining whether or not this person poses a threat. So they 
will put the person on the watch list when they initiate an 
investigation. If the investigation determines that there is no 
nexus to terrorism, the person is to automatically come off the 
list. For that reason there are people on the list where there 
is no legal reason that we could deny them a visa or deny them 
entry to the country.
    Mr. Bilirakis. Anyone else want to take a crack at that?
    Mr. Fine. Congressman, one of the purposes that we saw on 
the watch list was not solely to detain the people who are on 
it, but to also to get intelligence and information about them. 
So sometimes when you are in contact with a State or local law 
enforcement officer or a Department of Homeland Security 
officer, it is important to find out about that person, to get 
information about that person, to contact the Terrorist 
Screening Center, which contacts the FBI. And one of the 
options, if there is a detention warrant, is to detain them, 
but other options are to get intelligence, to track them, to 
get information about their passports, their aliases, where 
they are going, who they are in contact with. So there is often 
good uses of that watch list without a detention of that 
person.
    Mr. Bilirakis. Thank you.
    One last question, Mr. Chairman.
    Ms. Kraninger, are there any assurances that people who use 
the Travel Redress Inquiry Program properly to resolve problems 
they experience when traveling will not be stopped subsequently 
for the same reasons they were in the first place, such as 
having a similar name to someone who is actually on the watch 
list? And are the majority of redress requests not watch list-
related or cases of misidentification? I would like to get 
those questions answered, please.
    Ms. Kraninger. Certainly.
    Of the millions of individuals that we are screening 
against the watch list every year, the vast majority of those 
cases are, you know, individuals who successfully go through 
the screening process. We do catch certain individuals with 
names that are similar to those on the watch list, and also 
obviously conduct secondary screening on people for a number of 
other reasons.
    And so we cannot promise that an individual that goes 
through the redress process will never be secondary screened 
again, but what we do promise is that we are going to do 
everything we can, given the limitations of the current process 
that is run by the air carriers--that we will do everything we 
can to smooth their travel experience in the future.
    And so we do have a current process, and we do work 
diligently on the each of the cases. And most of the carriers 
are performing the check against the no-fly and selectee list 
and using the cleared list to ensure that. But there are a 
number of individuals that are caught with misidentification. 
And we will improve that once Secure Flight is implemented, and 
we are running the process on the government side consistently 
across the airlines.
    Mr. Bilirakis. Thank you.
    I have one last question, Mr. Chairman.
    I understand that TSA has created a cleared list of 
frequently misidentified individuals, and that CBP has a system 
for overriding the watch list flags on these people. Are there 
privacy or other issues that would prevent the creation of 
something like a consolidated clear list to expedite the 
process for people who are frequently detained for secondary 
screening because of a hit against the system?
    Ms. Kraninger. Yes, Congressman. There are a number of 
reasons why we don't have a consolidated cleared list per se, 
the first of which is because we really do want to narrowly 
tailor the redress to the request that is made, for privacy 
reasons. We do not share people's information when they 
identify only a domestic travel issue, which, again, is 
primarily linked to the fact that we are letting the airlines 
do the watch list matching at the moment. That is not as 
effective, and we don't have as much information; so therefore, 
that is the place we are having most of the issues with respect 
to misidentification. And so where that is the only problem the 
individual traveler is having, we don't have the need to share 
their information with other agencies at that time. So we want 
to make sure we address the problem they have and not further 
disseminate their information, though it is certainly protected 
when we have their information.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Mrs. Lowey. Go quick.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    And just briefly, before I get to my question, I really 
want to thank the panel. Usually we have people from the 
Department of Homeland Security who are hiding behind 
methodology and not giving us the facts, but both Mr. Boyle and 
Ms. Kraninger have agreed with the findings of GAO and DOJ, and 
for that we applaud you.
    I just want to ask you a question regarding the process. It 
is my understanding that each screening agency does not check 
the entire watch list. And there are cases in which some users, 
such as the Department of State, when screening visa 
applications, do not need to use the entire list. But the GAO 
report tells of instances where there were problems as a direct 
result of the agency not examining the list. Now, examples come 
to mind of TSA clearing prescreening lists for oversea flights 
only for CBP to discover after the plane has taken off and is 
en route to the U.S. that an individual on board is on a watch 
list. This is clearly unacceptable. The purpose of the 
terrorist screening database is to have one list, not a TSA 
list, not a CBP list, not an FBI list, et cetera.
    Director Boyle, why don't agencies check against the entire 
list? Are there technological or financial hurdles? If so, will 
the administration request sufficient resources in its fiscal 
year 2009 budget request to close this dangerous loophole?
    And I just want to say before you respond, I don't know if 
it is budgetary. I don't know what it is. I hope you are going 
to enlighten us. But, frankly, I am very concerned about the 
threats that we read about, and if it is budgetary, we should 
be asked for the appropriate amount. There is no excuse, as far 
as I am concerned, for any agency not to review the combined 
list.
    Could you respond?
    Mr. Boyle. Yes. Thank you very much.
    The reason that not all of the agencies receive the entire 
list is neither budgetary nor technological. It is rather a 
function of the mission of that particular agency and a 
balancing of the inconvenience that might be associated with 
that agency screening against the entire list.
    Mrs. Lowey. Is the inconvenience threatening our safety? Do 
you think inconvenience is a good excuse?
    Mr. Boyle. No. It is not threatening our safety. And I 
hasten to add, when I say inconvenience, I don't mean 
inconvenience to the agency. I mean inconvenience to the 
public. For example, if the TSA, for purposes of conducting 
secondary screening at the airports, screened against the 
entire terrorist screening database, I dare say we would bring 
air transportation to a halt in the United States.
    Mrs. Lowey. Excuse me, Mr. Boyle. We don't have the 
technology? Maybe you should call Google or Microsoft. We don't 
have the technology to do it quickly? I go to an ATM machine, I 
get my money out. They know who I am and what I am doing. We 
don't have the technology?
    Mr. Boyle. We have the technology, but in order for us to 
make a determination that a person is necessary--ought to be 
secondly screened at an airport, we set a higher standard, a 
higher threshold for the type of information that would justify 
that person being subjected to that inconvenience.
    Mrs. Lowey. Why not a visa?
    Mr. Boyle. Visa gets a much larger--they get about 90 
percent of the terrorist screening database, and, in fact, they 
get all but the United States persons who are part of the 
database. So the State Department gets close to the entire 
database. There is only a small portion that it doesn't get 
because of a lack of specificity of identity for the person who 
is seeking the application.
    Mrs. Lowey. Well, why don't we let people on flights that 
CBP has flagged?
    Mr. Boyle. Largely that is a result of the Advanced 
Passenger Information System that has not yet come into place, 
but is going to come into place within the next month, whereby 
instead of these people that are flying from Europe, let's say, 
to the United States only being identified after the plane 
leaves Europe, they will now be identified 30 minutes prior to 
departure from Europe, so we will know before they actually 
leave that a person who is on the watch list is approaching the 
United States.
    Mrs. Lowey. When will that be effective?
    Chairman Thompson. I really hate to cut the gentlelady off.
    Mrs. Lowey. That is all right.
    Chairman Thompson. We are going to recess the hearing for 
this one vote, and we will reconvene at 11:30, if that is fine.
    Mrs. Lowey. Thank you.
    Chairman Thompson. And the gentlelady can continue.
    [Recess.]
    Chairman Thompson. We would like to reconvene the hearing.
    And Ms. Lowey will continue.
    Ms. Lowey. Thank you very much, Mr. Chairman. And we can 
pursue that in other discussions, but I did want to get to 
Presidential Directive 6, which mandates that the terrorist 
watch list be made available to support private-sector 
screening processes.
    What is the status of your efforts to work with DHS to 
finalize guidelines for the private-sector screening process 
outlined in HSPD 6, which was issued more than 4 years ago? In 
other words, what do you have to go through to know if someone 
wants a job in an industry that is pretty critical to our 
defense? Could you respond? Why is it taking this long?
    Mr. Boyle. I believe Ms. Kraninger can best address that 
question. But the TSC works very closely with the Department of 
Homeland Security on an everyday basis. We have participated 
with DHS in helping craft the guidelines for private-sector 
screening. And I believe Ms. Kraninger can probably best 
address exactly where that stands.
    Ms. Lowey. So if you can make it clear that people who work 
in critical infrastructure sites may be on the watch list or 
may be not--what are we doing now 4 years later?
    Mr. Boyle. Several of the industries that are of greatest 
concern already screen employees, potential employees, and 
visitors. Others are still in the process of awaiting the 
private-sector screening guidelines, which are going to be 
issued quite soon.
    Ms. Lowey. Do they have access to the screening list? How 
do they screen?
    Mr. Boyle. The private-sector entities that will be part of 
the private-sector screening process will have access to the 
database.
    Ms. Lowey. But you said they are currently screening now.
    Mr. Boyle. Certain components of the infrastructure, such 
as airports, for example, do have access and do screen against 
the database.
    Ms. Lowey. Thank you very much. And I would love the answer 
to that, because I think it is really critical 4 years later.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Thompson. Thank you very much.
    We now recognize Mr. Etheridge for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And let me thank each of you for being here.
    We talked about and you testified this morning how 
important the list is, and obviously it is. But there is also a 
concern that has been raised that I want to pursue just a 
little bit of those who may get on that list and how they get 
off if they should not be on that list.
    And I raise it because I have been notified by a 
constituent who alleges that the FBI placed him on the list 
because the agent had it in for him, so he says. Anyway, he 
said he was placed on it due to personal disagreements.
    My question is this. You have a general list, whether you 
are there for personal disagreements on not. Once you get on 
the list, my question is--the public needs to know there is a 
clear, straightforward way to have your name taken off the list 
if, for some reason, you get on the list and you should not be 
on it.
    So my question, Mr. Boyle, to you is this: What procedures 
are in place to ensure that people are not wrongly placed on 
the list?
    And, number two, how can we make it possible, or do we make 
it possible, for individuals to contest their placement without 
compromising national security? Because that is the critical 
piece we have to have. And would it be possible to have an 
ombudsman, if that be true in this area, so that we can 
maintain the critical security we need for this country to make 
sure that I, as an individual, or anyone else who may be on the 
list can get off that list?
    Mr. Boyle. Let me answer in the order that you presented 
the question, sir.
    In the first instance, what is the process for a person 
getting on that list? There is at least a three-layer review 
before an individual can be placed on the terrorist screening 
database, and particularly on either the no-fly or----
    Mr. Etheridge. Does that also include--I hate to interrupt 
you--but the FBI who can just put it on there? Do they go 
through a three-level review as well?
    Mr. Boyle. It will. Because ultimately what has to happen 
with that record is it goes from the FBI field office 
supervisor, who in the first instance has to approve, to the 
FBI Terrorists Records Section here in Washington, which has to 
approve. And then, even if FBI enters the record directly, it 
still goes through the National Counter-Terrorism Center and 
still comes through the terrorist screening database. There is 
a multi-layer review.
    Mr. Etheridge. Okay.
    Mr. Boyle. For a person who finds himself or believes that 
he is on the list, that is where the redress process comes in. 
And if that person seeks redress through TSA, in this example, 
and TSA determines, yes, this person is on the list, the matter 
then comes to the Terrorist Screening Center, to our redress 
unit.
    We have a very effective unit of several people who are 
dedicated to do nothing other than handle redress matters. When 
they get that matter, they conduct a complete, de novo--is the 
law we call it--review of the nomination to determine whether 
that person is appropriately on the list.
    Mr. Etheridge. How many people have been taken off the list 
through that process since we have started the process?
    Mr. Boyle. Our redress unit has handled almost 600 matters. 
I can't tell you off the top of my head how many people were 
taken off.
    Mr. Etheridge. If you can get that, that would be helpful 
to know. The public needs to know that it is being done, and I 
think that would be helpful.
    Ms. Larence, let me just ask you a question because you did 
the review. And could you assess how widespread the problem is, 
if it is a problem, the one I just alleged to? And what checks 
and balances can be put in place, as much as possible?
    And we just heard from Mr. Boyle that there is a three-
level--and is that adequate, to make sure that we are doing the 
job we need to protect our national security? Which, that is 
job one, and, number two, that innocent people don't wind up on 
the list in that process. And do you agree with the assessment 
of the probability of Mr. Boyle's remedy?
    Ms. Larence. Yes, that is pretty consistent with what we 
learned during the course of our review, that if the nomination 
comes from the Federal Bureau of Investigation, they do have 
internal controls on that nomination so that, when an 
investigation is closed, that person has to come off that list 
if there is no nexus to terrorism.
    We also confirmed that people are taken off the list 
through the Terrorist Screening Center's redress review 
process. Last year when we took a snapshot of this process, TSC 
had been asked to review about 112 cases, and about a third of 
those were people who were mistakenly listed and, in fact, were 
removed from the list. But about another 20 percent were people 
that were not, in fact, people on the list.
    So I think oftentimes members of the public assume they are 
on the list but they are not. They just, unfortunately, have a 
name similar to the person on the list, and so the agencies 
have to deal with that, because, as you know, they can't tell 
members of the public to confirm or deny whether they are on 
the list, for national security reasons.
    We don't know the process that the intelligence community 
uses to determine to what extent nominations they make are 
taken off the list, because the CIA chose not to talk to us 
about their process.
    Mr. Etheridge. Mr. Chairman, I see my time has expired. But 
one final question I think would be helpful to the public in 
maintaining our national security--because if a person thinks 
they are on the list, I think some of us hear from folks who 
think they are on the list and may not be. And it sure would be 
helpful if we had information, that our offices have it or 
others, and the public has it, that there is a process they did 
go through to find out if they are on and, if they are on, what 
process they go through to be taken off if they shouldn't be on 
it.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Mr. Souder, for 5 minutes.
    Mr. Souder. I would like to make a comment before I get to 
my questions, that we have talked about the difficulty of 
getting on a watch list. This isn't a watch-list question. But 
when I first got out of college and settled in Fort Wayne, my 
distant cousin, Dr. Mark Souder, lived in the same apartment 
complex. And since I was MES, Mark Edward Souder, I got all his 
doctor calls and he kept getting my political calls. So we 
decided we weren't going to live in the same complex. I went 
back to my hometown and him to his, and moved in next door and 
there was a Mark Sauder living next to me, spelled S-A. But I 
was 13733 and he was 13735, so our mail got confused.
    So then I came out to Washington to work for Dan Coats, and 
there was another Mark Souder who got behind in some payments, 
and I kept getting dunned for his payments. So I went back home 
and ran for Congress, and there a tax bill got sent to the 
wrong Mark Souder at a dead letter box, and it became an issue 
in my campaign that, ``I am this Mark Souder; he is this Mark 
Souder.''
    My point here, besides--and every Mark Souder in the 
country, when I do something controversial, ducks for cover, 
including my wife that says, ``I am not married to that one.'' 
That, besides being too many Mark Souders in the world, the 
fact is that the private sector hasn't figured this out either, 
that I have been dunned by financial, medical. This is a huge 
problem of identification.
    And without biometrics, the problem that the Government has 
is huge, in that we can talk about the controversies with 
biometrics, but given the fact that one guy in Ohio had 800 
birth certificates stolen, that we see Purdue University has 
been raided twice now to get IDs because we don't have a clear 
solution to the immigration problem in the United States. It is 
not even identity theft, it is just trying to get green card 
manufacturers with this.
    Not to mention that what you are talking about is the 
proliferation of misspellings, particularly of certain of 
foreign names. This is a very difficult problem. And the more 
common your name is, the more difficult the problem is. And we 
have to have an equitable way to do it. At the same time, if we 
basically protect that name, then somebody could steal my ID. 
If I have been on a list, got myself off a list, then it 
becomes a protected name on the list. Because you say, ``No, I 
am that one.'' And without biometrics, whether it is 
fingerprint or eyeball scan, I don't see a clear resolution to 
this. We are doing Band-Aid resolutions. But biometrics is the 
only real solution.
    I have a Canada question. As we do the list on pre-
clearance, how are we progressing with Canada? That is one 
question. On the North American perimeter, this is a very 
critical question.
    And also, given the fact that we have IBET teams and IMET 
and all this kind of stuff where we share this intelligence, 
are there some things being withheld that they couldn't do 
this? Could you kind of elaborate? Because this is one of our 
biggest challenges here in pre-clearance.
    Ms. Kraninger. Certainly, sir. We do have a robust law 
enforcement partnership with the Government of Canada. You 
noted the IBETs and some of the other coordination efforts that 
are there. It is a very strong relationship.
    With respect to the watch list that they use and we use, we 
do share results, but we do not actually share lists in their 
totality. And so, that is something that the U.S. Government 
and particularly the Department of Homeland Security--it has 
been a consistent issue in our discussions with the Government 
of Canada and something that we are still pursuing.
    Mr. Souder. Is there a way? Because I have met, under both 
Governments, with leaders on this issue and part of the U.S.-
Canada parliamentary group, because it would require 
constitutional changes there. And, quite frankly, in the 
constitutional changes, they may not break our direction, 
depending on how that is handled.
    Is there a way that, without providing all the raw data, 
that they could at least have a pop-up so it could be 
discussed, so that we don't have sovereignty questions, 
constitutional questions there? Or are we just going to be at a 
stand-off there? Because they still haven't agreed to do the 
pre-clearances. Correct?
    Ms. Kraninger. Actually, now that I understand a little bit 
more your going toward the land pre-clearance discussion----
    Mr. Souder. But it is airports as well. Because once they 
get into the country, their citizenship laws are getting better 
but they were more vague. Therefore, if you get into the North 
American perimeter, get on a plane in Montreal or cross a land 
border, if we don't have shared lists, we don't have a North 
American perimeter.
    Ms. Kraninger. You are absolutely correct, because the goal 
that we have as a policy matter is that shared perimeter and 
working in that direction.
    With respect to airports, we don't have quite the same 
sovereignty issue, which is why we do have some effective pre-
clearance operations in Canadian airports, and we do have CBP 
officers there performing the same check they perform in the 
United States.
    Mr. Souder. So we get the list prior to the plane living 
the ground?
    Ms. Kraninger. Yes. But with respect to the pre-clearance 
notion at land, that is where you get into the sovereignty 
issues and a number of complications that have meant the U.S. 
Government has really set that aside and said, you know, there 
are some serious issues you have to deal with, with respect to 
your Constitution, and potentially other options such as land 
swap or something that would accomplish that.
    Mr. Souder. Thank you.
    Chairman Thompson. Thank you very much.
    Mr. Perlmutter for 5 minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    I have been through about three of these hearings now, and 
I am still trying to understand the whole setup. And so let us 
just to go back to basics.
    The terrorist watch list, which is created by the Terrorist 
Screening Center, has some 700,000-plus names on it. Some are 
aliases and combinations of names. And from that, you distill 
the no-fly list. Is that right?
    Mr. Boyle. Yes, sir.
    Mr. Perlmutter. That no-fly list has 30,000, 40,000, 50,000 
names on it?
    Mr. Boyle. Somewhere in that area. Records associated with 
it. Probably fewer human beings. But yes.
    Mr. Perlmutter. And that list is then disseminated to the 
TSA and to the airlines?
    Mr. Boyle. Yes, sir.
    Mr. Perlmutter. And from that, then they look for--and this 
is a name-driven approach as opposed to a biometric 
fingerprints or retina scans or birth dates. It is a name-
driven system.
    Mr. Boyle. Primarily. Although we do have fingerprints 
associated with some of the persons, but not all.
    Mr. Perlmutter. And this goes to the whole panel, just 
going back to the no-fly list--because I have had the 
opportunity to hear you all and then be interviewed by a TV 
station that was concerned about false positives. You know, 
somebody--and, in that particular TV interview, the name was 
John Thompson. And John Thompson turned out to be--that name 
came from somebody who was involved with the IRA or some Irish 
terrorist organization of some kind or another. And in 
Colorado, we have at least 20 John Thompsons.
    In your reviews, any of you, how many times are we coming 
up with, sort of, false positives?
    And where I am going with this is just, I don't want to 
have the instance where we have spent so much time, as Ms. 
Kraninger was saying, going after people who are a 10-year-old 
soccer player flying from Denver to Kansas City and missing the 
bad guy.
    Mr. Fine, I think your office looked at all this.
    Mr. Fine. We did. Of the times that there was an initial 
match to the watch list and the Terrorist Screening Center was 
called, approximately 43 percent of the time it was a 
misidentification, it was not the person. And about 3 percent 
of the time it was inconclusive. So slightly over 50 percent of 
the time it was a positive match.
    Mr. Perlmutter. So the percentage is 43 percent. How many 
is that? What is the raw number?
    Mr. Fine. The raw numbers?
    Ms. Larence. We had updated information from the Terrorist 
Screening Center, and, to date, it was about 50,000. But we 
need to point out that the airlines can often resolve 
misidentification plane-site. So there could be tens of 
thousands of other misidentification that aren't called in to 
TSC that are adversely affecting the public.
    Mr. Perlmutter. Then we have the redress system, so that if 
somebody bumps into this, like the John Thompsons in Colorado 
bumped into it, they call themselves, when they get the 
secondary screening, because it has happened to them a number 
of times. They can go to this redress system. And how long does 
the redress system take?
    Ms. Kraninger. Once we get all the information from the 
individual, including their identification document copy and 
their privacy act notice statement, our goal is 30 days. Many 
of them we are completing much faster than that, if it is a 
simple misidentification and a domestic screening case.
    Mr. Fine. We have found that when the redress got to the 
TSC level, it was not as timely as that, and it took, on 
average, 67 days for the TSC to adjudicate the redress 
complaint.
    It wasn't always the TSC's fault. Sometimes it was a 
problem for them making final decisions. But often it was them 
not getting information from the nominating agencies quickly, 
or the downstream screening agencies not changing their 
databases even after the TSC had made the adjudication.
    So, on average, it took 67 days. We thought that was a 
little long and that they ought to improve on their timeliness 
and have timeliness measures for their redress efforts. In 
fact, that is one thing that I would propose for all the 
screening agencies, to have performance measures on how fast it 
takes to deal with those complaints and to assess that on a 
regular basis.
    Mr. Perlmutter. So let us just, again--coming back to the 
basics, the basics are we want to have a safe and secure sky. 
We want our travelers to be safe and secure. We want our Nation 
to be safe and secure. Yet, we don't want to bring flying to a 
halt.
    Is there a better way to do this than the system that we 
have devised? And not casting any aspersions on anybody or the 
work they are performing, is there a better way to do this?
    Mr. Boyle?
    Mr. Boyle. Well, obviously, as was pointed out by Mr. 
Souder, biometrics is the best answer, because that is the one 
sure way we can identify a particular human being and know 
whether he is or is not the person who we are concerned about.
    I do think, however, that as DHS rolls out the Secure 
Flight program, which will give them an electronic and 
automatic override for these misidentified people, there will 
be substantial relief for those folks who are constantly 
subjected to misidentification.
    Chairman Thompson. We are running out of time.
    Mr. Perlmutter. One more question, softball.
    Do we have enough people in your department, Mr. Boyle, or 
from your point of view, Ms. Larence, in his department or in 
TSA to do this properly, to really respond to some something 
that comes up on the computer that says ``John Thompson''?
    Ms. Larence. We didn't look at the staffing levels as part 
of our review, sir.
    Mr. Perlmutter. Mr. Boyle?
    Mr. Boyle. We do. We have to add some people to the redress 
department, as the Inspector General recommended. And we are in 
the process of doing that, and we will do it.
    Mr. Perlmutter. Thank you.
    Thank you, Mr. Chair.
    Chairman Thompson. Thank you.
    We will recess the hearing until 12:10 to give us time to 
go vote. There is only one vote, and we will reconvene. I 
appreciate the indulgence of the witnesses.
    [Recess.]
    Chairman Thompson. We would like to reconvene the hearing.
    I recognize the gentleman from New Jersey for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Boyle, you have admitted in testimony here today, in 
really shocking but honest fashion, that having a fake alias 
and documentation can get you part of the terror watch list. 
And you--that is, the Department--seems oblivious, in my 
estimation, to any coordination with, for example--and I use 
this only as an example--Interpol, which has the world's 
largest database of fake passports.
    So that is the general area, Mr. Chairman, I am going to be 
asking questions on, not only in terms of dealing with Interpol 
but basically coordinating.
    The Interpol's command center is a clearinghouse for 
international crime and maintains the world's largest database 
of known terrorists. Eleven thousand names are in that 
database. Interpol has the world's only database on lost or 
stolen passports and travel documents. There are more than 15 
million of them. And every week 3,000 people try to use one to 
enter the country illegally. That is pretty alarming.
    Ron Noble, the Secretary General of Interpol, has stated 
that every significant international terrorist attack that has 
occurred has been linked in some way with either a fraudulent 
passport, an authentic passport that has been modified or a 
counterfeit passport. So, by catching the people with stolen 
passports, Mr. Chairman, you get yourself closer to catching 
terrorists.
    The system has been operational for more than 2 years, but 
the Department of Homeland Security is just now beginning to 
phase it in at some border locations. This is in addition to--
the Department of Homeland Security has 250,000 employees, yet 
Mr. Noble says none of them are based at Interpol.
    So my question to Director Boyle and Ms. Kraninger is: Do 
we coordinate our terrorist screening database with Interpol?
    And the second question is: Are we actively making changes 
to our watch lists at the borders, at airports, at seaports, in 
coordination with the changes being made to the database being 
maintained by Interpol?
    Ms. Kraninger. Congressman, we do take very seriously, and 
you are absolutely correct, that the presentation of fraudulent 
documents is, as the 9/11 Commission noted and as our 
operations bear out, that that is a very serious and real 
problem.
    At our ports of entry and as part of Customs and Border 
Protection screening, we actually obtain significant lost and 
stolen passport information from Interpol but also from other 
sources. As part of the visa waiver program, all of the VWP 
countries actually have to provide that information to the U.S. 
Government.
    So, in some respects, we have data that is different and 
even better than what Interpol has, with respect to lost and 
stolen documents. It is not perfect. We are, as international 
governments, working very hard to get better information and 
make sure we are sharing it in a real-time basis and using it 
in a real-time basis.
    Mr. Pascrell. Wouldn't that make sense, to put someone from 
the Homeland Security Department into the operations, as we do 
with drug interdiction, as we do with many countries, friendly 
and not so friendly, where we have our people working there, 
under certain obvious conditions? And why haven't we done this 
with this organization, which has a very small budget?
    By the way, America contributes very little to Interpol, 
which is strange, but that is not for our discussion today.
    Are we going to put somebody there possibly?
    Ms. Kraninger. Yes, sir, we are.
    With respect to terrorist screening from Customs and Border 
Protection--and DHS does have, I believe, two other individuals 
that are actually placed at Interpol already.
    Mr. Pascrell. Thank you.
    Mr. Boyle?
    Mr. Boyle. Sir, we rely on the information that we receive 
from the law enforcement community. The actual coordination 
with Interpol or any other organization is not handled by the 
TSC directly but through our partner agencies, such as FBI, 
CIA, et cetera. So we rely on those agencies to develop those 
relationships, get the information, and then we clear it as it 
arrives at our doorstep.
    Mr. Pascrell. Is that shocking to you, that, in what you 
said in your testimony, how easy these fake aliases and fake 
documentations are available to people?
    Mr. Boyle. It is not shocking to me, sir, because, in my 
experience in law enforcement, I know that identity theft and 
identity fraud is a serious problem.
    Mr. Pascrell. But we are 6 years after 9/11. And you come 
before this committee, and in all honesty--I am commending you 
for your honesty--you are not just coming here to give us good 
news. But 6 years later, we still do not have an adequate 
system for protecting what probably is the most important area 
in protecting this country from terrorists.
    We do not, we are never going to have a seamless system. We 
know that. And we have human mistakes. Nobody is perfect here. 
But your testimony today doesn't give me much comfort. Give me 
some comfort.
    Mr. Boyle. I can tell you, sir, that we have a database 
that is the most comprehensive in the world. Working through 
the State Department, our other partner agencies, we are 
getting information, to the extent possible, about people who 
are trying to change identities, alter identifying information. 
And we are adding that to the database on a daily basis.
    I can't assure you that we are finding every single one. Of 
course not. But I do know that our partner agencies are working 
to establish, as much as they possibly can, sources of 
information that will allow us to determine when a person is 
trying to use a false identity or a false identifier. And as 
soon as we get that information, it is being put into the 
database and being exported to the State Department, Customs 
and Border Protection, local law enforcement.
    Mr. Pascrell. I have to say one thing, that, at least the 
TSA recognizes, we have more than one border. A lot of other 
agencies within Homeland Security, you would think we only have 
a southern border. The last time I looked at the map, we had 
many borders. Don't we?
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from New York, Ms. Clarke, 
for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Living and serving a diverse district of Brooklyn, New 
York, in a post-9/11 civil society, and since coming to 
Congress the beginning of this year, I have grown increasingly 
concerned with the application of the terrorist screening 
database.
    The existence of a comprehensive list of terrorist suspects 
has become an unfortunate necessity in this day and age. But we 
must be very vigilant and careful in how this information is 
handled and applied. As the list grows bigger, I fear it has 
become a major disruption in the lives of countless innocent 
individuals, including many people who are not even on the list 
but just happen to possess a similar name to individuals who 
are on the list.
    I will soon be introducing legislation to address this very 
issue. If there is going to be a single list of terrorist 
suspects, there must also be a single Government-wide list of 
people who have voluntarily given their names and personal 
information to ensure that they are no longer wrongly harassed 
and who have been cleared of any wrongdoing who have been 
misidentified. This will both improve the quality of life of 
many people who have been misidentified as terrorist suspects 
and also improve the quality of our Nation's defenses by 
reducing the number of false alarms, allowing for greater focus 
on the actual suspects.
    Ms. Larence, in your September 2006 report, you noted that, 
``It is important for TSC and screening agencies to provide 
effective redress for individuals who are misidentified to the 
watch list and adversely affected.''
    Did your work address the extent to which agencies are 
sharing redress information in order to reduce 
misidentification?
    Ms. Larence. At that time, our work indicated that each 
agency was pursuing their individual programs. But the 
Terrorist Screening Center was working with the agencies to 
develop a memorandum of understanding, so that I think TSC was 
trying to promote some better consistency across the agencies 
throughout their process.
    Ms. Clarke. Then let me ask Mr. Boyle, have those 
memorandums of understanding been executed?
    Mr. Boyle. Yes, they have, Representative Clarke. The 
memorandum was executed by all partner agencies, I believe, in 
August or September of this year. So we now have essentially 
formalized a process that was largely informal prior to that 
memorandum being signed. And this now commits a senior person 
at each of those agencies to coordinate and be responsible for 
an appropriate response any time there is a redress matter that 
affects that agency.
    Ms. Clarke. Ms. Kraninger, Assistant Secretary Kip Hawley 
testified before the Subcommittee on Transportation Security 
and Infrastructure Protection on October 16. I asked Mr. Hawley 
if other Government agencies could benefit from DHS TRIP. He 
responded, ``Yes, it is important to me to the public to be 
able to quickly resolve misidentification.''
    I think the idea of a one-stop shop is an excellent idea. 
Do you support the idea of using a consolidated cleared list, 
much the same as a consolidated watch list, which would be used 
to quickly resolve misidentification?
    Ms. Kraninger. To answer your question directly, I think we 
have to do a little bit more work to determine whether the 
consolidated cleared list is something that is going to be the 
most effective way to do this. And I am absolutely open to 
looking at that and working with your staff or you, 
Congresswoman, to figure that out. We have not looked 
comprehensively at that.
    In terms of DHS TRIP serving other agencies, again, we are 
open to that, as well, if other agencies wanted to approach us 
on that.
    Ms. Clarke. But wouldn't it seem to you--are you expecting 
some unintended consequences of consolidating the list?
    Ms. Kraninger. Yes. The one example that I can offer to 
that is the fact that our process currently in domestic 
screening and the fact that the air carriers are doing the 
watch list matching and using the cleared list in an 
inconsistent way across airlines is what is causing most of the 
adverse effects and the adverse impact on the traveling public.
    And so, given that that is where most of our problem is, it 
may be that taking information of the vast majority of those 
people and putting it on the consolidated cleared list is not 
necessary. Though it is certainly something we will look at.
    Ms. Clarke. I think it is something that we really need to 
look at, because I don't see how people who voluntarily give 
their information--we would not set a standard by which anyone 
who has to use our list--and I am thinking about the future 
beyond just airline travel. You have agriculture, the use of 
certain materials that could be bomb-making; the Department of 
Agriculture would have to use this. You have CBP that could use 
this list. You have the State Department that uses this list. 
And it would be really unfortunate for an individual who 
happens to be a farmer that needs to travel gets caught up on 
all these lists, and no one is talking to the other.
    It would seem to me that this would be something that would 
assist the public who want to clear their names, who want to be 
sure that they are cleared, and don't want to have to go 
through what can really be a psychologically damaging process 
after a while when your name is not cleared.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. We now recognize the gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. And I thank you for 
convening this hearing.
    And thank you, friends, for appearing today. You have a 
very difficult job. One branch of our Armed Services has as its 
motto, if you will, ``The difficult we do right away. The 
impossible takes a little longer.'' You have an impossible 
task, but we still have to do it.
    And if I may, Mr. Chairman, before I go into my statement 
and my questioning, I have a statement from the National 
Business Travel Association that I would like to have, with 
unanimous consent, placed in the record. This is a statement 
that was just handed to me.
    Chairman Thompson. Without objection.
    Mr. Green. Thank you.
    [The information follows:]

                             For the Record

                  Submitted by the Honorable Al Green

       Prepared Statement by National Business Travel Association

    The authoritative voice of the business travel community, the 
National Business Travel Association (NBTA) represents over 3,000 
corporate travel managers and travel service providers who collectively 
manage and direct more than $170 billion of expenditures within the 
business travel industry, primarily for Fortune 1000 companies. NBTA is 
the leading international association to represent the corporate travel 
community.
    The number of NBTA members and their employees traveling on 
airplanes are at record levels. Of course, the transformation of the 
aviation security process after 9/11 has led to significantly increased 
screening of passengers, both biolgraphical and physical. NBTA 
recognizes the need to protect commercial air travel from terrorist 
attacks and other risks which would cause immense human and economic 
costs.
    The massive increases in the numbers of individuals placed on 
government watchlists, especially the No-Fly and Selectee lists 
operated by the Terrorist Screening Center and the Transportation 
Security Administration, has led to an explosive increase in the number 
of employees at NBTA member companies who have found themselves 
confused with watchlist entries.
    Thus, NBTA was pleased to see the launch of the DHS Traveler 
Redress Inquiry Program (DHS TRIP), which provides a central gateway 
for travelers to obtain information about screening and to apply for 
redress. Unfortunately, the initial results for TRIP show that the 
problem has far from been solved. NBTA is hopeful this program will 
live up to the expectations of the American people and alleviate many 
of the hassles the business travel community is experiencing.
    Between February 20, 2007, and October 26, 2007, DHS TRIP recorded 
approximately 15,900 requests for redress in its management system. 
Approximately 7,100 of which have resulted in travelers being added to 
the Cleared List. The majority of DHS TRIIP requests that remain in 
processing are awaiting submission of supporting documentation by the 
applicant.
    NBTA recently conducted a survey of NBTA members to ascertain the 
level of awareness about DHS TRIP and guage reaction to the program. In 
general, travel managers rate as ``fair'' the ability of security 
screening programs to effectively identify travelers for secondary 
screening.
    However, where there are watchlist problems, those seeking relief 
do not know about DHS TRIP, nor do corporate travel managers enough 
about the program to assist their employees. Sixty-four percent of 
travel managers surveyed were unaware of DHS TRIP. Only twenty percent 
have recommended DHS TRIP as a solution to their employees. Ninety-two 
percent of respondents stated their company did not included 
information on TRIP in communications to their employees.
    Among the small number of respondents who had used TRIP and judged 
the program's effectiveness, most had favorable results. Thus, it 
appears that the key is getting information about DHS TRIP into the 
hands of industry stakeholders and the general public. One survey 
respondent concluded, ``Now that I have read about the program I will 
disseminate the information to all of our travelers.''
    To make the redress program effective, DHS should embark on a 
public relations campaign to inform the travel industry community and 
members of the general public about the program. DHS should work with 
air carriers and airport authorities to post signage related to DHS 
TRIP and to distribute explanatory and enrollment materials directly to 
travelers. In addition, the Department should redouble efforts to 
utilize trade associations such as NBTA to distribute information to 
member and their human resource and travel departments. For example, 
this week NBTA included a link to DHS TRIP in the daily newsletter that 
goes to all NBTA members. DHS could significants increase awareness by 
encouraging those types of links and providing materials tailored for 
specific segments of the travel industry.
    Additionally, recent reports indicate that it takes about forty-
four days for DHS to process a redress complaint filed through DHS 
TRIP. One comment on the NBTA survey noted, ``The process is too long 
and involved to get your name removed from the list. It has taken over 
6 months for travelers to be removed and some of them are still 
fighting.'' A shorter adjudication process would go a along way toward 
establishing confidence among travelers in the program.
    NBTA urges congress to provide DHS with resources to make DHS TRIIP 
the effective program it was designed to be by (i) implementing a 
public relations campaign, (ii) reducing the frequency when those who 
have been cleared by DHS TRIP are required to undergo secondary 
screening; and (iii) reducing processing time for redress complaints by 
increasing the number of examiners.
    One person surveyed by NBTA concluded, ``Some have given up and 
just get to the airport early.'' Until individuals who have sought 
redress feel that their travel experience has been entirely fixed, the 
program will not be considered a complete success. NBTA looks forward 
to working with DHS and the Congress to ensure these measures are 
implemented to the benefit of the American people and U.S. businesses.

    Mr. Green. Friends, the Chairman mentioned in his 
statements the act of changing identity so as to eschew the 
possibility of being detected. The question that I have for you 
is, is there a need for a systematic approach to dealing with 
persons who legally and lawfully change identities, so as to be 
aware of the change and in some way use this information with 
reference to your list?
    And I suppose, Mr. Boyle, you might be the person to answer 
this.
    Mr. Boyle. The short answer to your question, sir, I 
believe, is yes. And, as you know, we have had discussions with 
the Social Security Administration about being able to 
determine when it is that a person legally changes his or her 
name with the Social Security Administration so that we would 
get that information.
    I have to say that, in my own personal experience, persons 
who have evil intentions in using other identities typically 
don't want to create a paper trail that leads back to their 
true identity. So our primary concern is people who adopt 
identities without any trail back to their true identity.
    But certainly those who do so legally are also of interest 
to us, and we would like to be able to get that information to 
the extent that we can.
    Mr. Green. The next question has to do with something that 
I was impressed with. I believe, Ms. Larence, you indicated 
that the terrorist watch list is something that is accessed at 
a traffic stop. Did you make that statement, ma'am?
    Ms. Larence. When a local or State law enforcement person 
pulls someone over and checks the name of the person stopped, 
that person's name is checked against the terrorist watch list 
at the same time.
    Mr. Green. I am impressed. That is quite a bit of good use 
of technology, I think, so I am impressed with the way the 
technology is working.
    But it does cause me some degree of concern when I realize 
that the no-fly list is a subset of the terrorist watch list; 
and while we can check persons who are entering the airports or 
going to board planes, we don't check people who are boarding 
trains.
    We have the technology to check a person at a traffic stop, 
but a person boards a train completely unabated, as I 
understand it. Now, if I am incorrect, please give me some 
intelligence on my thoughts.
    Mr. Boyle. I can tell you, sir, that, in general, I believe 
you are correct about that. I know, in my experience as the 
Commissioner of Public Safety in Connecticut, we were very 
concerned about commuter trains. But the fact is that if mass 
transit is going to exist and is truly going to transport 
people in a mass fashion expediently, we are never going to be 
able to do the same sort of screening at train stations that we 
do at airports or that we do at roadside traffic stops.
    At the very least, screening a person's name against the 
database is going to take several seconds. Those of us who have 
been on a train platform in New York City or at any other major 
metropolitan area here in D.C. know it is just not practical to 
try to screen people before they get on those types of systems 
of mass transit.
    Mr. Green. While I understand the difficulty associated 
with it, is there some alternative to preventing the person? 
Perhaps what you are saying is it is difficult to screen and 
prevent. But is there still some intelligence acquired as to 
who was on that train, in the event something happens to that 
train?
    Mr. Boyle. For longer transit, I know, from my own personal 
experience in traveling on Amtrak, you have to verify your 
identification when you purchase a ticket or at least when you 
are on the train. So there is some after-the-fact verification 
of who was on the train.
    But as far as a proactive approach, we really can't rely on 
screening in the same extent that we do at airports. We have to 
rely on police departments, bomb-trained dogs, things of that 
nature.
    Mr. Green. With my last 20 seconds, if we have a process by 
which we have this subset called the no-fly list but we don't 
vet the no-fly list, it is of value but it is not of the same 
value as it would be if we were vetting it.
    And what do I mean by vetting it? Scrutinizing closely so 
as to eliminate persons who may not be a threat, but those that 
we prioritize and we say that this person really is someone 
that we need to look at closely. A vetting process, which gets 
back to the directive from the President, I believe, we really 
need to move to that vetting process.
    And I will yield back and expect a response, if the Chair 
will permit it.
    Mr. Boyle. Thank you, sir. And if I may, we, in fact--and I 
didn't mention this in my opening remarks--in early 2007, did a 
complete review of the no-fly list. We had all of our analysts 
review each and every entry on the no-fly list to make a new, 
fresh determination whether that person should still remain on 
the no-fly list. And we removed several names because we 
determined that they were no longer appropriate for no-fly.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    I have several questions.
    Ms. Kraninger, I am still early in my young professional 
career here, but one of the first cases I worked on that came 
to our office was a gentleman who was a longtime Pennsylvania 
Department of Transportation employee who learned he was on a 
terror watch list by going just on a domestic flight. He became 
concerned because he was scheduled to take a family trip to 
Ireland later that year and didn't want to slow down the 
process.
    I just kind of want to look back to the question Chairman 
Thompson tried to get an answer to, regarding the initiation of 
redress at the airports.
    The 9/11 bill, as it was signed into law, reads--and if you 
would permit me to quote--``The office shall establish at each 
airport at which the Department has a significant presence a 
process to provide information to air carrier passengers to 
begin the redress process established pursuant to Subsection 
A.''
    Now, as we know, the intent of the language was not to buck 
the passenger to the Federal security officer, which seems to 
be what is going on, where the security officer would say, 
``Yes, we understand it is tough; here is a card or a Web site 
to go to.''
    So, please, if we can get an answer on this, how far along 
is DHS in placing an official, not an FSL but an official, at 
each of these airports to begin the redress process?
    Ms. Kraninger. In the discussions with staff, and even in 
the drafting of that legislation and our discussions with it, 
there is absolutely a need to begin the process at the airport 
where the individual is----
    Mr. Carney. So you are saying we haven't done that yet?
    Ms. Kraninger. No, we do.
    I am trying to get it, sir. I am sorry. Give me a second 
here.
    That we have a process, and that information should be 
available to the traveler at the airport so that they 
understand what is happening.
    But the most important thing with respect to use of the 
watch list and redress is, one, that you are talking about an 
individual who is going to get to board the flight. They are 
going to travel that day. And we have to make sure that, with 
respect to how we manage the watch list and how we accomplish 
redress, that we do this the right way. And that is, the 
quality of the process is the important part here, to make sure 
that we do it right.
    And in order to actually accommodate that at the airport, 
you know, we cannot actually do that. As we have noted, 
particularly when it comes to someone who may indeed actually 
be on the watch list, this is an involved process, going back 
to the nominating agency, determining and reviewing again what 
the information is that was the basis for that placement on the 
watch list. So it is something that we really cannot accomplish 
to the full extent on the spot.
    However, when it comes to the case of a close match to a 
no-fly, that absolutely does have to be addressed at the 
airport, because you are talking about, now, precluding an 
individual from traveling that day. And that is something, 
again, that we do take very seriously, and that law 
enforcement, along with the airlines, along with the Federal 
security director, deals with potentially right on the spot 
with the individual.
    And so, they do get that redress in both cases. Either 
their case is adjudicated and they are allowed to fly, or, 
again, in the other case, the individual is allowed to travel 
that day.
    Mr. Carney. So, in other words, we don't have many people 
at these airports that are FSOs that are for this redress? I 
mean, can you give me just a number of how many we have at 
airports? They are not the FSOs, but they are the ones that are 
supposed to begin the redress process.
    Ms. Kraninger. There are not individuals who are going to 
be dedicated to the redress process per se. Every single TSA 
employee, as well as the airline employees, are part of that 
process to understand and articulate to the public what the 
redress process is and what the screening process is. And we 
have been working to educate them on that.
    Mr. Carney. Okay. I guess we will have to come back around.
    Also, this is for, I think, Mr. Fine. If the laws change to 
disallow firearm sales to any person on the watch list, and due 
to that a person is discovered that they are on the watch list 
when they go to buy, say, a rifle for deer season--which is 
coming up in my district very, very soon--do you anticipate a 
lot of litigation on handling this? How do you ensure that the 
challenge of their inclusion will be met?
    I tell you what, you run into some folks who are getting 
ready for deer season and they are prohibited from getting 
their 270, they are going to be upset.
    Mr. Fine. I am sure they are. Well, we haven't looked at 
that, and I would only be speculating.
    I do want to point out that most of the people on these 
watch lists are not United States persons. A very small 
percentage of them are. And so I would anticipate, if people 
are denied benefits based upon potential inclusion on the watch 
list, there are going to be ramifications. They are going to 
seek redress in all sorts of forms, whether it is in the 
established redress process or in alternative forms as well.
    Mr. Carney. One more question. Mr. Boyle, do you support 
the use of the watch list to deny persons specific rights under 
the Constitution, normally granted under the Constitution, for 
example, Second Amendment rights?
    Mr. Boyle. I support the use of the watch list for the 
Government to make the best determination whether, consistent 
with due-process concerns, a person is appropriately denied a 
constitutional or statutory right. That is, I don't think that 
the watch list, for the most part--and it certainly is not an 
automatic disqualifier in any fashion. But to the extent that 
the watch list is used to provide an appropriate adjudicator 
with all of the information that he or she ought to have in 
making a determination about a person's constitutional rights? 
Yes, I do support that.
    Ms. Kraninger. So the use of the watch list is fine if 
somebody is trying to buy a firearm?
    Mr. Boyle. Absolutely. Again, it is fine for the purpose of 
the adjudicator understanding what information is available 
about that person. How the adjudicator uses that, the weight 
that he gives it and the standard by which he compares it to 
constitutional protections is a matter that, obviously, is in 
the realm of that adjudicator.
    Mr. Carney. Ms. Larence, is any one agency ultimately 
responsible for assuring the quality of the information on the 
list? Is there anybody who can say, ``No, you can't put that 
person on''? Who does the adjudicating?
    Ms. Larence. We didn't find--no. That is why we are 
recommending that an entity be designated with those kinds of 
authorities.
    I think that there are probably differences in the way 
individual agencies approach nominations, and the inspector 
generals of the intelligence community are looking at that very 
issue.
    Mr. Carney. Thank you.
    No further questions. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Since I referenced Congressman John Lewis in my opening 
statement, can you, for the record, Ms. Kraninger, tell me if 
we have resolved Congressman Lewis's problem?
    Ms. Kraninger. We have, to the best of our ability, Mr. 
Chairman. We work closely with his staff and are doing 
everything we can. He flies most frequently, obviously, on 
Delta to Atlanta, and we have had conversations with them. And 
so, that issue has been resolved with respect to Delta. But 
given the way that each air carrier runs the list differently, 
we cannot promise that his issue is, indeed, fixed forever.
    Chairman Thompson. And I think you know that is the 
problem. The minute he uses another carrier, he is stopped. And 
so part of what we are trying to do is, how do we get somebody 
who probably half the people in America know is not a bad guy 
off the list?
    Ms. Kraninger. And, Mr. Chairman, we are open to other 
ideas. We are doing the best that we can, given the current 
operating procedures. But we have pushed for and we do believe, 
as the 9/11 Commission recommended, that the best way to 
accomplish this and address Congressman Lewis's situation is by 
taking over the watch-list matching to the Government side and 
implementing Secure Flight in a way that is consistent across 
all airlines.
    Chairman Thompson. So there is no way someone like 
Congressman Lewis can get off the list completely, at this 
moment?
    Ms. Kraninger. Well, to be clear, Congressman Lewis is not 
on the list. But, again, a full determination of the list and 
looking at it and the scrub continues, in terms of quality 
assurance of the selectee list.
    But the names that are on there are on there because they 
have been determined to be on there and they are associated 
with a threat to civil aviation. So the individual who is on 
the list is someone that needs to remain on the list, and that 
has been reviewed.
    Chairman Thompson. So you are saying that is another John 
Lewis.
    Ms. Kraninger. Essentially, yes, sir.
    Chairman Thompson. So are we saying that, short of him 
having a name change, there is no way we can fix it?
    Ms. Kraninger. We have gone through the redress process, 
and we are able to fix it to the extent that we can. But we 
cannot promise, because the airlines are running the individual 
name matching, that there will never be a problem again. And we 
are doing the best that we can on this, certainly, and welcome 
any other ideas as to how to approach it.
    Chairman Thompson. Ms. Larence, can you help us with that?
    Ms. Larence. I am assuming that he is on the cleared list?
    Ms. Kraninger. Yes.
    Ms. Larence. And the cleared list goes to all airlines?
    Ms. Kraninger. Yes.
    Ms. Larence. So why can't each airline use the cleared 
list?
    Ms. Kraninger. Every airline does use the cleared list. 
But, again, you are talking about different technologies, 
different sophisticated systems, different ways of matching 
that is being conducted today. And that is the reality of the 
operating environment today.
    Chairman Thompson. Okay. So you get the question asked now, 
Ms. Larence.
    Ms. Larence. I don't understand, sir.
    Chairman Thompson. You don't understand why he can't be off 
the list?
    Ms. Larence. Well, he is not on the list. That Mr. Lewis is 
not on the list.
    Mr. Souder. Mr. Chairman, I have a concern, an objection 
here, that we are coming perilously close to giving tips and 
that I think some of this might be better handled in a private 
session. We could give a copy of Mr. Lewis's Bar ID to 
everybody at every airport in America. But the problem isn't 
just Mr. Lewis. He is an example of the problem. So we want to 
be careful in a public forum in asking that, because we don't 
want to give people tips.
    Chairman Thompson. I think the reason I did, Mr. Lewis came 
to this committee and asked us, ``Can you see why I am having 
trouble every time I get in an airport?'' And that is why it is 
not a secret. We have had that discussion before the committee 
before.
    Mr. Souder. But asking how to get it fixed.
    Chairman Thompson. Not to how to get it fixed. I am saying, 
do we have a system, and we are talking about redress, and not 
how, the mechanics. But it is clearly, if we are talking about 
redress which the 9/11 bill addressed for individuals who might 
be misidentified, we are just trying to establish whether or 
not that process is complete.
    Ms. Kraninger. And, Mr. Chairman, if I could, the process 
is as complete as we can make it today. And, again, we welcome 
other suggestions from people as to how to improve it further.
    Our position with respect to this is that the best way to 
accomplish consistent, uniform screening and use of the cleared 
list so that these kinds of situations can be avoided is 
implementation of Secure Flight and taking the watch-list 
matching process into the Government so that it is done 
uniformly.
    Chairman Thompson. Mr. Perlmutter?
    Mr. Perlmutter. Just sort of going back to the basics, the 
basics is it is a name-driven system, and that name-driven 
system, whether there is Ed Perlmutter--and I understand there 
are five Ed Perlmutters in the country, and thank goodness they 
are all good guys.
    But because it is a name-driven system, and you have the 
airlines--because I had this interview from Channel 9. You have 
the airlines now, even with the cleared list they still are 
worried that John Lewis is the bad John Lewis, and they still 
run him through the secondary screening, which they shouldn't, 
but they do.
    So, again, unless we add some factors which then start 
getting us into privacy issues, we are sort of between a rock 
and a hard place. And, I mean, everybody can always do a better 
job. We need to give, sort of, better direction to folks and we 
have still got to do it all within the ambit of the 
Constitution. So biometrics is going to be it, but that starts 
getting so private that a lot of people in my district are 
going to rebel against that even though it might save them time 
at the airport.
    Chairman Thompson. And I guess, Ms. Kraninger, you can 
probably move us into Secure Flight at this point, if that is 
the long-term solution to the problem rather than a name-driven 
list. Do you have an idea when we will be on-line with Secure 
Flight?
    Ms. Kraninger. Mr. Chairman, we are ready to proceed with 
operational testing. That is the next step. However, we do lack 
the funding, given the current funding level under the 
continuing resolution, to proceed to that step. So we are 
certainly working diligently within the administration and with 
the Congress to address that. But we are at a critical funding 
shortfall at the moment.
    Chairman Thompson. To your knowledge, do you know if the 
Department has requested monies to implement this phase of it?
    Ms. Kraninger. Yes, sir, we have. The President's request 
in fiscal year 2008 was $53 million. And we added to that just 
this week. The President submitted a budget amendment request 
that moved to accelerate Secure Flight with an additional $21 
million. So the total request is $74 million for fiscal year 
2008.
    Chairman Thompson. And if that is granted, what time line 
are we looking at?
    Ms. Kraninger. Depending on when that is granted--because, 
again, we are looking at having to suspend contracts and let 
contract staff go who are in the development of the system--
that is going to challenge us and give us more risks. But 
certainly if we can get more funding, we expect to begin 
operations next year.
    Chairman Thompson. And you know we tried a couple times 
before with this Secure Flight. Have we resolved the privacy 
issues around it?
    Ms. Kraninger. We believe that we have. We put a lot of 
effort and energy into the robustness of the system and in our 
outreach to the privacy community. The notice of proposed 
rulemaking and privacy impact assessment and systems of records 
notices that were released just a couple of months ago were 
generally well-received, even with the privacy community. There 
are several quotes that we can provide from individuals who are 
well-respected who stated that we really heard them.
    We did look at the privacy impact and did our best to limit 
it with the amount of information that we are collecting, 
balancing that against the efficiency and the real issues that 
we have talked about today as to how you conduct watch-list 
matching effectively. But we believe that we have and that we 
are ready to proceed with operations.
    Chairman Thompson. Mr. Souder?
    Mr. Souder. I had a question kind of as a follow-up to Mr. 
Carney's. And I wanted to ask Mr. Fine, you mentioned earlier, 
and I think it was confirmed, that over 40 percent of the 
people on the list shouldn't necessarily be on the list because 
there were other names, other variations.
    What, of that percent, would be U.S. citizens? Did you have 
that?
    Mr. Fine. We didn't look at that.
    But I want to be clear. This is not 40 percent on the list, 
what I was saying. When the Terrorist Screening Center has 
called and we have somebody we think is a match, and they have 
to look at their list to see whether it is a match, 43 percent 
of the times they determined it was not a match, and 50-some 
percent of the time they determined it was a match.
    Mr. Souder. So it could be a person calling in didn't read 
something right. But given that, do we have any idea what is 
the scope of this problem, how many of these people are 
citizens versus noncitizens?
    Mr. Fine. Of the people on the list, less than 5 percent 
are U.S. persons.
    Mr. Souder. And of the misidentification, we don't have any 
idea.
    Mr. Fine. No. We did not drill down into that.
    Mr. Carney. Will the gentleman yield on that?
    Mr. Souder. Yes.
    Mr. Carney. Mr. Fine, of the 5 percent, in raw numbers, how 
many is that?
    Mr. Fine. Well, if there are approximately 800,000 records 
on the list----
    Mr. Carney. But that is not 800,000 people. I think the TSC 
has said there are approximately 300,000 names, although that 
is not an exact figure. So 5 percent of 300,000.
    Chairman Thompson. Mr. Souder?
    Mr. Souder. This is probably the most delicate part of 
this, particularly as we use this list in other areas. And it 
is why misidentification like Mr. Lewis's problem is critical. 
We are all trying to figure out how to resolve it.
    I wanted to make two other comments. One is that the 
pressure here we have is being right is more essential than 
timeliness, because if one plane blows up, then the whole 
airline industry shuts down, tourism shuts down, commerce shuts 
down. Similar things are going to happen. And I almost heard, 
like, in rail or commuter trains, we have to have somebody 
blown up before we actually get tougher.
    This is the constant tension we have here in Government, 
between trying to move commerce, move people, free trade, 
students, foreign students coming in, versus the risk. And it 
is that risk assessment and the accuracy of the list that is 
very critical. And we heard some of that in the hearing today.
    But I just believe biometrics is the only way to go here. I 
probably chaired 60 narcotics hearings in my term in Congress, 
and we have watched them cut off a thumb, as many as two 
fingers. And that eyeball scan is even more controversial. But 
we need to realize, if we really are serious about this and if 
the level of terrorism increases in the United States, there 
isn't really an alternative to biometrics, because that is the 
way to be secure that you have the right person in front of you 
with multiple names.
    I also want to say one other thing, because I learned in 
our narcotics hearings that people who were doing illegal 
activities watched hearings very closely, and they tried to 
figure out from testimony and from questions where there were 
openings. And that anybody watching this hearing, looking at 
this transcript and so on, should know that sometimes some of 
the questions and answers can be actually setups. And that we 
don't always grab the first time, but we test our systems.
    So anybody who looks at this today and says, ``Oh, I found 
something,'' don't bet on it, because we are working on all 
those apparent openings. It is hard for us to have a 
transparent hearing on subjects like this without tipping 
people. But don't make assumptions off of this hearing. I have 
done this many times in my career. Don't make assumptions off 
of this hearing.
    Chairman Thompson. The gentlelady from New York.
    Ms. Clarke. Thank you, Mr. Chairman.
    Ms. Kraninger, I wanted to ask whether, since DHS TRIP 
already shares some of its information within DHS when it is 
specifically requested, and since there is already a process in 
place for sending out this type of information, would it be any 
more difficult for your office to send out your cleared list to 
other DHS screening agencies on a more regular basis?
    Ms. Kraninger. As a technical matter, no, there would not 
be.
    The one thing that is of note though, too, that makes 
domestic aviation screening difficult is that there is less 
information collected on the individual. So in those other 
screening cases, if you talk about someone applying for 
immigration benefits or coming across the border, we have an 
identity document, we have more identifiers that make this less 
of an issue.
    But there is no technical reason why we couldn't share it 
more broadly.
    Ms. Clarke. And I guess being more frequently, because you 
would be updating your information as more and more people get 
cleared from the list. It is my understanding that you have 
been regularly clearing people from the list. The problem is 
the lag with other entities, within your own agency. So 
individuals who may be cleared from no-fly may be coming back 
in through CBP, and they are flagged again and detained for 
hours on end.
    I think that that within itself is something that can be 
addressed. It is a quick fix. It is not a major disruption to 
the process, as it would be to spread it beyond. But even 
within your own agency, I think that would be of benefit to the 
people of the United States who are misidentified. Don't you?
    Ms. Kraninger. You are absolutely correct. And we do share 
it where people are having those issues. And we have seen less 
of those problems.
    The one thing to note is that it is not always a watch-
list-related issue, as we have seen. And there are other 
reasons to pull people over and further scrutinize them, 
particularly at a port of entry.
    Ms. Clarke. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Mr. Boyle, for the average person who 
has been misidentified, can you just say how long you think it 
would take for someone to go through the process of making an 
application and getting a clear?
    Or it might be Ms. Kraninger's area. I am not sure.
    Is it you, Ms. Kraninger?
    Ms. Kraninger. Yes, sir.
    Chairman Thompson. Just a ballpark figure on the time line.
    Ms. Kraninger. Our goal is 30 days from the time the 
individual submits their identification document and their 
privacy act notice statement assigned to us, along with their 
redress request. So that is our goal.
    Our average processing time today is longer, but it is 
misleading, because the time that we are tracking now, the only 
time the system can track now--and we are working on upgrading 
the system--is from the time that they submit their request 
without documentation, or perhaps with documentation, until the 
time it is closed. And that average time right now is 44 days.
    Chairman Thompson. Forty four days.
    Ms. Kraninger. Yes.
    Chairman Thompson. Ms. Larence, did GAO look at this 
situation at all?
    Ms. Larence. We didn't look at the time frames about less. 
The TRIP program wasn't up and running when we looked at 
redress last September, sir.
    Chairman Thompson. Okay.
    I thank the witnesses for their valuable testimony and 
members for their questions.
    The members of the committee may have additional questions 
for the witnesses, and we will ask you to respond expeditiously 
in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
